APPENDIX

1

APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Fourth
Circuit
(August 15, 2019)
App. 1
Appendix B Memorandum Findings of Fact and
Opinion and Decision in the United
States Tax Court
(August 23, 2018)
App. 6
Appendix C Order in the United States Tax Court
(November 30, 2018)
App. 39
Appendix D Order in the United States Tax Court
(November 30, 2018)
App. 40
Appendix E Order and Decision in the United
States Tax Court
(December 7, 2018)
App. 43
Appendix F Supplement
to Respondent’s
Computations for Entry of Decision,
Filed November 20, 2018 in the
United States Tax Court
(December 6, 2018)
App. 46
Appendix G Order Denying Petition for Rehearing
and Rehearing En Banc in the United
States Court of Appeals for the Fourth
Circuit
(October 22, 2019)
App. 49

11

Appendix H Stay of Mandate under Fed. R. App.
P. 41(d)(1) in the United States Court
of Appeals or the Fourth Circuit
(October 1, 2019)
App. 51
Appendix I

Mandate in the United States Court of
Appeals for the Fourth Circuit
(October 30, 2019)
App. 53

Appendix J Notice of Federal Tax Lien 2005-2007
(July 3, 2009)
App. 55
Appendix K Appeals Transmittal and Case Memo
-CDP
(April 5, 2011)
App. 58
Appendix L Decision
Letter Concerning
Equivalent Hearing Under Section
6320 and/or 6330 of the Internal
Revenue Code
(April 21, 2011)
App. 61
Appendix M Certificate of Release of Federal Tax
Lien 2005-2007
(May 4, 2011)
App. 69
Appendix N IRS Notice of Overpaid Tax Applied to
Other Taxes You Owe for Tax Year
December 31, 2007
(May 16, 2011)
App. 72
Appendix O^ IRS Notice We Intend to Levy on
Certain Assets
(September 20, 2010)
App. 76

Ill

Appendix P IRS
Notice
of Determination
Concerning Collection Action(s) under
Section 6320 And/or 6330 of the
Internal Revenue Code for Tax Period
December 2011
(June 6, 2014)
App. 84
Appendix Q Form 1040X AmendedU.S. Individual
Income Tax Return (fold-out exhibit)
and Letter to IRS from Louis and
Sandra Shuman
(April 16, 2012)
. App. 92
Appendix R 26 U.S.C. § 6214
26U.S.C. § 6402

App. 115
App. 117

,j

App. 1

APPENDIX A
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
[Filed August 15, 2019]
No. 18-2426
LOUIS S. SHUMAN; SANDRA SHUMAN,
Petitioners - Appellants,
v.

)
)
)
)

COMMISSIONER OF INTERNAL REVENUE, )
Respondent - Appellee.
)
No. 19-1242
LOUIS S. SHUMAN; SANDRA SHUMAN,
Petitioners - Appellants,
v.

)
)
)
)

COMMISSIONER OF INTERNAL REVENUE, )
Respondent - Appellee.
)
Appeals from the United States Tax Court. (Tax Ct.
Nos. 015847-14L; 027857-13)

App. 2
Submitted: July 29, 2019 Decided: August 15, 2019
Before WYNN and FLOYD, Circuit Judges, and
TRAXLER, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion.
Louis S. Shuman, Sandra Shuman, Appellants Pro Se.
Janet A. Bradley, Arthur Thomas Catterall, Gretchen
M. Wolfinger, Francesca Ugolini, UNITED STATES
DEPARTMENT OF JUSTICE, Tax Division,
Washington, D.C., for Appellee.
Unpublished opinions are not binding precedent in this
circuit.
PER CURIAM:
In Appeal No. 18-2426, Louis S. Shuman and
Sandra Shuman appeal from the tax court’s orders
upholding the Commissioner of Internal Revenue’s
proposed levy action with respect to their self-reported
income tax liability for the 2011 tax year and denying
their motion for reconsideration. In Appeal No. 191242, the Shumans appeal from the tax court’s orders
upholding the Commissioner’s determination of a
deficiency in their 2011 income taxes, and denying
their motion for reconsideration. We have reviewed the
records in these appeals and find no abuse of discretion
and no reversible error. Accordingly, we affirm for the
reasons stated by the tax court. Shuman v. Comm’r of
Internal Revenue, No. 15847-14L (T.C. Aug. 23, 2018,
Nov. 30, 2018); Shuman v. Comm’r of Internal Revenue,
No. 27857-13 (T.C. Aug. 23, 2018, Dec. 3, 2018, Dec. 7,
2018). We deny the Shumans’ motions for production of
documents and for a stay of enforcement pending

App. 3
resolution of these appeals. We dispense with oral
argument because the facts and legal contentions are
adequately presented in the materials before this court
and argument would not aid the decisional process.

AFFIRMED

]

App. 4
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
[Filed August 15, 2019]
No. 18-2426 (L)
(015847-14L)
LOUIS S. SHUMAN; SANDRA SHUMAN,
Petitioners - Appellants,
v.

)
)
)
)

COMMISSIONER OF INTERNAL REVENUE, )
Respondent - Appellee.
)
No. 19-1242
(027857-13)
LOUIS S. SHUMAN; SANDRA SHUMAN,
Petitioners - Appellants,
v.

)
)
)
)

COMMISSIONER OF INTERNAL REVENUE, )
Respondent - Appellee.
)
JUDGMENT
In accordance with the decision of this court, the
judgments of the tax court are affirmed.

App. 5
This judgment shall take effect upon issuance of
this court’s mandate in accordance with Fed. R. App.
P. 41.
Is/ PATRICIA S. CONNOR, CLERK

App. 6

APPENDIX B
T.C. Memo. 2018-135
UNITED STATES TAX COURT
Docket Nos. 27857-13, 15847-14L.
[Filed August 23, 2018]
LOUIS S. SHUMAN AND SANDRA SHUMAN, )
Petitioners
)
)
)
)

v.

COMMISSIONER OF INTERNAL REVENUE, )
Respondent
)
Louis S. Shuman, prose.
Alex Shlivko, for respondent.
MEMORANDUM FINDINGS
OF FACT AND OPINION
GALE, Judge: This proceeding involves two cases
that have been consolidated for trial, briefing, and
opinion. In the first, at docket No. 27857-13, [*2]
petitioners1 seek redetermination of respondent’s

1 Petitioner Sandra Shuman failed to appear for trial, whereupon
respondent moved to dismiss as to her for failure to properly
prosecute. On brief, respondent treats both petitioners as having

App. 7
determination of a deficiency of $88,613 and a section
6662(a) accuracy-related penalty of $17,723 with
respect to petitioners’ Federal income tax for 2011.2 In
the second, at docket No. 15847-14L, petitioners seek
review of a determination by the Office of Appeals
(Appeals) of the Internal Revenue Service (IRS) to
proceed with a levy to collect $40,277 in Federal income
tax that petitioners reported as due on their joint
Federal income tax return for 2011.3 After concessions,4
the following issues [*3] remain for decision:
(1) whether respondent properly disallowed a $197,337
casualty loss deduction claimed on the 2011 return;

issues pending in these cases. We therefore treat respondent as
having abandoned his motion.
2 Unless otherwise noted, all section references,are to the Internal
Revenue Code of 1986 (Code), as amended and in effect at all
relevant times, and all Rule references are to the Tax Court Rules
of Practice and Procedure. All dollar amounts have been rounded
to the nearest dollar.
3 Respondent’s account transcript indicates that he assessed
$40,277 in Federal income tax for petitioners’ 2011 taxable year.
However, petitioners reported $40,543 in tax due on the 2011
return. The parties have offered no explanation for the apparent
discrepancy. We therefore treat the amount by which the higher
figure exceeds the lower as respondent’s concession of a reduction
in the deficiency by that amount.
4 Petitioners concede that they failed to report gross receipts of
$1,349 and that they were not entitled to a claimed home mortgage
interest deduction of $62,154 for 2011. Respondent concedes the
sec. 6662(a) penalty with respect to the underpayments arising
from the foregoing. Respondent further concedes his determination
that petitioners failed to report $17,469 of wage income (and
consequently the associated sec. 6662(a) penalty).

App. 8
(2) whether respondent properly disallowed a $566,889
credit, for 2011 estimated tax payments and amounts
applied from the 2010 return, claimed on the 2011
return; (3) whether petitioners are liable for a section
6662(a) accuracy-related penalty with respect to the
underpayment arising from the disallowance of the
casualty loss deduction claimed on the 2011 return;
and (4) whether the determination by Appeals to
proceed with the proposed levy to collect the 2011
income tax liability as reported by petitioners was an
abuse of discretion.
FINDINGS OF FACT
Some of the facts have been stipulated and, together
with the exhibits attached thereto, are incorporated
herein by this reference. At the time the petitions were
filed in these cases, petitioners resided in Maryland.
I.

2010 return
A. Original 2010 return

Petitioners (who were spouses) timely filed a 2010
joint Federal income tax return (original 2010 return),
reporting taxable income of $226,830 and total tax due
of $69,662. The original 2010 return reported
withholding tax payments of [*4] $17,856 and no 2010
estimated payments or amounts applied from 2009,
resulting in total tax payments of $17,856. Petitioners
reported a balance due of $52,875, consisting of $51,806
in tax and an estimated tax penalty of $1,069.
Petitioners did not refer to or claim a deduction for a
casualty loss on the original 2010 return.

App. 9
B. Amended 2010 returns
Petitioners submitted two amended returns for the
2010 taxable year (first and second 2010 amended
return, respectively).
1. First 2010 amended return
The first 2010 amended return reported an
approximately $30,000 decrease in taxable income,
stating that it reflected a correction “for
professional/consultant fees (2010 Schedule C
adjustment: $30,000).” The return also reported
reductions of $20,087 and $803 in income and
employment tax, respectively, without apparent
explanation. The return also reported a previously
undisclosed estimated tax payment of $618,403,
explaining the newly claimed payment as follows:
“Correction of returns for 2005-2009, to correct
payments properly applied to 2005-2009 resulted in
payments reflected on this amended return, •k it k These
corrections arise from taxpayer(s) [sic] stock option
income being taxed without deduction for stock option
basis.” Petitioners added their previously reported [*5]
withholding of $17,856 to the newly claimed estimated
tax payments of $618,403, applied that sum ($636,259)
against the reported total tax due of $48,772, and
claimed the difference of $587,487 as an overpayment.
The return elected that the claimed $587,487
overpayment be applied toward petitioners’ 2011
estimated tax.
Petitioners attached to the first 2010 amended
return a 12-page letter asserting that as a result of
amended returns completed for the 2005 to 2009

App. 10
taxable years, they were entitled to the amount
claimed as an overpayment. In the attached letter,
petitioners also asserted that they were entitled to a
“business loss” deduction under section 165 for 2010
because that was the year in which the “taxpayer
became aware, for the first time, of the substantial
losses incurred because tax professionals, that
prepared taxpayer’s returns, did not reduce stock
option income by stock option basis.” The letter
included the following, which it characterized as a
calculation of the claimed loss:
1. $641,345, as set out in Atch 06, and Atch 0012005; [51
2. Increased overpayments of state-local taxes
approximated at: $60,750;
3. Forced sale of taxpayers [sic] Potomac, Md
home, with resulting closing costs
approximating: $20,000; and loss of equity in
home approximating: $400,000.
[*6] 4. Subsequent purchase of home, with
closing costs approximating: $20,000.
5. Purchase of home, approximately 1/2 the
value of the Potomac MD home, with no equity,
and increased mortgage; difference in cost of
Potomac mortgage payments and Chevy Chase
payments (2006-2010), approximating: $225,000.
6. Total loss: $967,095.

5 Petitioners’ letter states that “Atch 06” and “Atch 001-2005” are
references to two amended returns petitioners filed for the 2005
taxable year, dated July 23, 2010, and April 16, 2012, respectively.

App. 11
The attached letter stated the following with respect to
the claimed loss:
Taxpayer has no coverage for this loss, by
compensation, or otherwise. If taxpayer were to
make a claim, it would be in the nature of
professional malpractice, and/or negligence.
Taxpayer has abandoned any such claims,
because, in addition to the time and expense of
suing, taxpayer would be required to sue several
attorney, and accountant, firms including
persons with very close relationships to
immediate family members. The destructive
effect of such actions would only further damage,
if not irreparably damage, already damaged
family relationships.
The sale of the Potomac, Maryland, residence, for
which petitioners claimed a loss for 2010, occurred in
2005.
2. Second 2010 amended return
The second 2010 amended return reported a
decrease in taxable income from $226,830 to $202,461, with the following explanation:
2. Line 1 adjustments: (a) professional consult
fees/employment: $30,000;
(b) IRC 165 business
casualty loss arising from prior returns not
deducting cost basis of stock options from income
derived from stock options. Loss amount:
$399,873 ([$] 344,215.41 lost equity from sale of
Potomac, MD home; $40,073 apportioned closing
costs from sale of Potomac, MD home; [$] 15,585

App. 12
apportioned closing
Chase, MD home).

costs-purchase-Chevy

[*7] The return reported that the $69,662 of tax
reported as due on the original 2010 return was
reduced by $63,555. But instead of reporting the
remaining difference of $6,107 as the correct amount of
total tax due, petitioners reported - $197,337 as the
correct amount.
The return also reported a new and previously
undisclosed estimated tax payment of $549,033,
without explanation, and added it to the $17,856 of
withholding reported on the original 2010 return, for a
total of $566,889, which was claimed as an
overpayment. The return elected that the claimed
$566,889 overpayment be applied to petitioners’ 2011
estimated tax.
3. Denial of refund
The parties have stipulated that to the extent
petitioners submitted claims for refunds or
overpayments for 2010, respondent denied them. As of
September 15, 2014, petitioners’ Federal income tax
account transcript for 2010 showed a balance due,
including accrued interest and penalties, of $72,220.
II.

2011 return

Petitioners prepared and filed the 2011 Form 1040,
U.S. Individual Income Tax Return, reporting total tax
due of $40,543. On line 63 (“2011 estimated tax
payments and amount applied from 2010 return”)
petitioners reported tax payments of $566,889, that is,
the amount of the overpayment claimed on the [*8]

App. 13
second 2010 amended return. Petitioners claimed the
difference between these two figures, $526,346, as a
refund.
For 2011 petitioner Louis S. Shuman (Dr. Shuman),
a dentist, had no Federal income tax withheld from his
wages,6 and petitioners made no Federal income tax
payments of any kind. Petitioners’ Federal income tax
transcript for 2011 reflects no credits from prior years.
Petitioners filed a Schedule C with the 2011 return
covering Dr. Shuman’s business, identified on the
Schedule C as “Orthodontist/Lecturer/Researcher”.
Petitioners reported gross income on the Schedule C of
$386,200. Under “Other Expenses”, petitioners claimed
a $197,337 deduction for “IRC 165-business casualty
loss carryover from: 2010”. Petitioners filed a Schedule
A, Itemized Deductions, with the 2011 return but did
not report a casualty loss on line 20 (“Casualty or theft
loss(es)”) or attach Form 4684, Casualties and Thefts,
as Schedule A instructs. Aside from the aforementioned
deduction claimed on Schedule C, the 2011 return
provided no information concerning the purported
casualty loss.

6 During 2011 Dr. Shuman was an employee, earning wages of
$167,470. As discussed above, Dr. Shuman also filed a Schedule C,
Profit or Loss From Business, with the 2011 return, reporting
$386,200 in gross income from a Schedule C business. Petitioner
Sandra Shuman did not report any wages but did file a Schedule
C with the 2011 return, reporting a $1,313 net profit from a
business identified on the Schedule C as “Design”.

App. 14
[*9] III.

Notice of deficiency

On August 27, 2013, respondent issued a notice of
deficiency, determining a deficiency of $88,613 and a
section 6662(a) accuracy-related penalty of $17,723
with respect to petitioners’ 2011 Federal income tax.
The notice disallowed the $197,337 casualty loss
deduction claimed on the 2011 return. The notice also
stated that “based On the exam there is no evidence to
support the prior year over-assessment in the amount
of $566,889.00. As a result there are no payments
applied to the total tax owed for tax year 2011.”
Petitioners timely petitioned for a redetermination of
the deficiency.
IV.

Collection of self-reported tax for 2011

On October 1, 2013, after issuing to petitioners a
notice and demand for payment of the tax reported as
due on the 2011 return, respondent issued a Letter
1058, Final Notice of Intent to Levy and Notice of Your
Right to a Hearing. In response, petitioners filed Form
12153, Request for a Collection Due Process or
Equivalent Hearing. Petitioners’ case was assigned to
a settlement officer to conduct the collection due
process (CDP) hearing.
The settlement officer held a conference with
petitioners’ representative. During the conference
petitioners’ representative raised no collection
alternatives or arguments premised on procedural
irregularities. Petitioners’ representative [*10] raised
only the following arguments: (1) petitioners had
overpayments of tax for the taxable years 2003 through
2010, (2) the IRS improperly denied petitioners’

App. 15
overpayment claims, (3) the settlement officer should
redetermine the substance and merits of the
overpayment claims, (4) the determination should be
favorable to petitioners, and (5) the determination
should result in the allowance of the overpayments and
the issuance of a refund to petitioners to be used to pay
the 2011 tax liability (with the balance refunded to
petitioners). Thus, the sole issue raised during the
conference was that petitioners’ 2011 tax liability had
been satisfied and petitioners were due a refund.
After reviewing petitioners’ transcripts, the
settlement officer explained to petitioners’
representative that petitioners’ refund claims for the
prior years, including 2010, had been disallowed and
that there were no overpayment credits available to
offset the 2011 tax liability. The settlement officer
verified that all applicable laws and administrative
procedures had been followed with respect to the
unpaid tax and the proposed levy. He also verified that
petitioners had no available credits from prior taxable
years and that they did not otherwise make any
payments toward their tax liability for 2011.
[*11] V. Notice of determination
On June 6, 2014, Appeals issued a notice of
determination sustaining the proposed levy action to
collect the self-assessed 2011 tax liability. The notice
stated that petitioners had offered no collection
alternatives and that the refunds petitioners claimed
in amended returns for prior years--which petitioners
had argued satisfied the 2011 tax liability--had been
denied. Finally, the notice stated that because
petitioners had not offered an acceptable alternative to

App. 16
satisfy the 2011 tax liability, the proposed collection
action was no more intrusive than necessary and
therefore balanced petitioners’ concerns with the IRS’
interest in the efficient collection of taxes. Petitioners
timely petitioned for review of the determination.
OPINION
I.

Deficiency determination

Petitioners have petitioned for a redetermination of
the deficiency and section 6662(a) accuracy-related
penalty respondent determined for 2011. After
concessions, the deficiency remaining at issue arises in
part from respondent’s disallowance of a $197,337
casualty loss deduction. The notice of deficiency also
noted that there was no evidence to support petitioners’
claim on the 2011 return of [*12] a “credit elect
overpayment”--i.e., an overpayment of tax from 2010
that petitioners elected to apply towards their 2011
Federal income tax--of $566,889.7
A. Casualty loss
In general, the Commissioner’s determination of a
deficiency is presumed correct, and the taxpayer bears
7 A taxpayer may elect to apply all or part of the overpayment
shown on his return to his estimated income tax for the succeeding
taxable year. See sec. 6402(b); Weber v. Commissioner, 138 T.C.
348, 356-357 (2012); sec. 301.6402-3(a)(5), Proced. & Admin. Regs.
“The subject of such an election is known as a ‘credit elect
overpayment’ or simply a ‘credit elect.”’ FleetBoston Fin. Corp. v.
United States, 483 F.3d 1345,1347 (Fed. Cir. 2007). The taxpayer’s
election, however, is not binding on the IRS. See Weber v.
Commissioner, 138 T.C. at 356-357; sec. 301.6402-3(a)(6), Proced.
& Admin. Regs.

App. 17
the burden of proving it incorrect. Rule 142(a); Welch
v. Helvering, 290 U.S. Ill, 115 (1933).8 Deductions are
a matter of legislative grace, and taxpayers bear the
burden of proving that they have met all requirements
necessary to be entitled to the claimed deductions.
Rule 142(a); INDOPCQ, Inc, v. Commissioner, 503 U.S.
79, 84 (1992). Moreover, deductions are to be narrowly
construed, and taxpayers bear the burden of proving
that the claimed deduction falls within the ambit of the
cited statutory provision. Deputy v. [*13] du Pont, 308
U.S. 488, 493 (1940); New Colonial Ice Co. v. Helvering,
292 U.S. 435, 440 (1934).
Section 165(a) generally allows a deduction for any
loss sustained during the taxable year if it is not
compensated for by insurance or otherwise. In the case
of an individual, however, the general rule is restricted
to: (1) losses incurred in a trade or business; (2) losses
incurred in a transaction entered into for profit, though
not connected to a trade or business; and (3) losses of
property not connected with a trade or business or a
transaction entered into for profit, where the losses
“arise from fire, storm, shipwreck, or other casualty, or
from theft.” Sec. 165(c).
On Schedule C of the 2011 return, in connection
with Dr. Shuman’s dental practice, petitioners claimed
a $197,337 deduction for “IRC 165-business casualty
loss carryover from: 2010”. Petitioners filed a
8 Petitioners contend for the first time in a posttrial submission
that they are entitled to a shift in the burden of proof to
respondent under sec. 7491(a). However, a taxpayer’s entitlement
to such a shift requires that he have substantiated all items. Sec.
7491 (a)(2)(A). Petitioners have not done so.

App. 18
Schedule A with the 2011 return but did not report a
casualty loss thereon or attach Form 4684 as directed
by Schedule A. In fact, the 2011 return did not provide
any information concerning the purported casualty loss
beyond the skeletal description on Dr. Shuman’s
Schedule C, which characterized it as a “casualty loss
carryover from: 2010”. The 2010 return did not claim a
casualty loss deduction, or even reference a casualty
loss, for that matter.
[*14] As noted supra pp. 4-7, petitioners submitted two
amended returns for 2010.9 The inception of the claim
that later manifested itself as a casualty loss deduction
on the 2011 return appears to have been on the first
2010 amended return, where petitioners claimed a
“business loss” deduction under section 165 for
“substantial losses incurred because tax professionals,
that prepared taxpayer’s returns, did not reduce stock
option income by stock option basis.” The first 2010
amended return set forth a calculation of the “business
loss” consisting of approximations of various costs
associated with the 2005 sale of petitioners’ personal
residence.
The second 2010 amended return provided a similar
explanation for the purported loss:
IRC 165 business casualty loss arising from
prior returns not deducting cost basis of stock
options from income derived from stock options.

9 Respondent, acting within his discretion, see Badaracco v.
Commissioner, 464 U.S. 386, 393 (1984), did not accept either of
the two amended returns for 2010 or grant the refunds claimed
therein.

App. 19
Loss amount: $399,873 ([$]344.215.41 lost equity
from ' sale of Potomac, MD home; $40,073
apportioned closing costs from sale of Potomac,
MD home; [$] 15,585 apportioned closing costspurchase Chevy Chase, MD home).
Respondent argues that petitioners have not
established legitimate grounds for claiming a deduction
for the purported casualty loss or supported it with
adequate substantiation. Petitioners now concede on
brief that the casualty loss is not related to Dr.
Shuman’s business but contend that it is nevertheless
deductible [*15] on three different grounds,
alternatively arguing that it represents: (1) the loss in
equity from the sale of petitioners’ residence to pay
taxes that were not legitimately owed; (2) the
abandonment of a negligence claim against return
preparers who inaccurately reported the value of stock
options granted to Dr. Shuman, resulting in
overpayments of taxes; or (3) a form of compensation
for refund claims for those overpayments barred by the
statute of limitations.10
As noted above, petitioners have now conceded that
the claimed loss was not incurred in a trade or
business, and the factual grounds they have cited for
the loss lack the requisite connection to a transaction
entered into for profit. Consequently, if petitioners’
claim is to be sustained, it must be as a loss of property

10 We note that the amount claimed as a casualty loss, i.e.,
$197,337, matches the amount reported as an overpayment on the
second 2010 amended return.

App. 20
“aris[ing] from fire, storm, shipwreck, or other
casualty, or from theft.”
The term “other casualty” in section 165(c)(3) is not
expressly defined in either the statute or the
regulations. This Court construes the term by applying
the rule of ejusdem generis. Maher v. Commissioner, 76
T.C. 593, 596 (1981), affd, 680 F.2d 91 (11th Cir. 1982);
Dodge v. Commissioner, 25 T.C. 1022, 1024 (1956).
Under this rule, general words that follow the
enumeration of specific classes are construed as
applying to things of the same general class as those
enumerated. Thus, in order for the loss to be
deductible, the taxpayer must prove that the [*16]
destructive event or happening was similar to a fire,
storm, or shipwreck. Accordingly, “other casualty”
denotes “an undesigned, sudden and unexpected
event”, Durden v. Commissioner, 3 T.C. 1, 3 (1944)
(quoting Webster’s New International Dictionary), or a
“sudden, cataclysmic, and devastating loss”, Popa v.
Commissioner, 73 T.C. 130,132 (1979). Conversely, the
term “excludes the progressive deterioration of
property through a steadily operating cause.” Fay v.
Helvering. 120 F.2d 253 (2d Cir. 1941), affg 42 B.T.A.
206 (1940).
Petitioners’ first argument--that the claimed
casualty loss deduction arises from the equity
petitioners lost on the sale of their personal residence-has no merit. The law is well established that a
deduction is not allowable under section 165(a) for a
loss suffered on the sale of a personal residence. See
Austin v. Commissioner, 35 T.C. 221 (1960), affd, 298
F.2d 583 (2d Cir. 1962); Meyer v. Commissioner, 34

App. 21
T.C. 528 (1960); Wilkes v. Commissioner, 17 T.C. 865
(1951); Koehn v. Commissioner, 16 T.C. 1378 (1951);
sec. 1.165-9(a), Income Tax Regs.11
Petitioners’ second and third arguments--that the
casualty loss deduction arises from the abandonment
of a negligence claim against their former return [*17]
preparers or is compensation for refunds barred by the
statute of limitations--are also without merit. Courts
have repeatedly ruled that “physical damage or
destruction of property is an inherent prerequisite in
showing a casualty loss.” Citizens Bank of Weston v.
Commissioner. 28 T.C. 717, 720 (1957), affd, 252 F.2d
425 (4th Cir. 1958); see also Kamanski v.
Commissioner, 477 F.2d 452 (9th Cir. 1973), affg T.C.
Memo. 1970-352; Pulvers v. Commissioner, 48 T.C. 245
(1967), affd, 407 F.2d 838 (9th Cir. 1969); Torre v.
Commissioner, T.C. Memo. 2001-218, affd, 52 F. App’x
965 (9th Cir. 2002); Chamales v. Commissioner, T.C.
Memo. 2000-33. Neither petitioners’ second argument
nor their third involves a loss of property arising from
the physical damage or destruction thereof. Moreover,
to the extent petitioners’ claim arises from speculative
economic losses, such a claim is beyond the scope of
section 165(c)(3). “The term ‘losses of property’ in
section 165(c)(3) does not include a taxpayer’s
monetary payment to a third party or a decrease in the
11 We note in addition that the evidence in the record establishes
that the residence that purportedly gave rise to the casualty loss '
deduction petitioners claimed was sold in 2005, yet petitioners did
not actually claim the deduction until 2010. A deduction for a
casualty loss must be claimed for the taxable year in which the loss
is sustained. See secs. 1.165-l(d)(l), 1.165-7(a)(l), Income Tax
Regs.; see also Hunter v. Commissioner, 46 T.C. 477, 492 (1966).

App. 22
taxpayer’s net worth.” Pang v. Commissioner, T.C.
Memo. 2011-55, slip op. at 8; see also Furer v.
Commissioner, 33 F.3d 58 (9th Cir. 1994) (holding that
the taxpayers’ losses “were the result of fluctuation in
the market and not the result of any physical injury to
the* * * [taxpayers’] property” and were therefore not
casualty losses), affg T.C. Memo. 1993-165; Posher v.
United States, 730 F.2d 375, 377 (5th Cir. 1984)
(holding that “‘property’ as used [*18] in § 165(c)(3)
includes money only if the actual currency or coinage is
physically damaged or destroyed by the enumerated or
implied casualties”). We therefore sustain respondent’s
disallowance of the casualty loss deduction petitioners
claimed on the 2011 return.
B. Credit elect overpayments
On line 63 (“2011 estimated tax payments and
amount applied from 2010 return”) of the 2011 return,
petitioners reported a credit elect overpayment of
$566,889, that is, the amount claimed as an
overpayment on the second 2010 amended return.
Petitioners claim that this represents the amount by
which they overpaid their Federal income tax for the
taxable years 2003 through 2010. In the notice of
deficiency, respondent noted that there was no
evidence to support petitioners’ claimed credit elect
overpayment.
Petitioners--citing sections 6214(b) and 6512(b)-argue that we have deficiency jurisdiction to determine
the alleged prior-year overpayments and apply them
for 2011. Respondent argues that petitioners
incorrectly describe and apply the relevant law. We
agree with respondent.

v/

App. 23
The Tax Court is a court of limited jurisdiction, and
we may exercise jurisdiction only to the extent
expressly authorized by Congress. Sec. 7442; see also
GAF Corp. & Subs, v. Commissioner, 114 T.C. 519, 521
(2000); Henry [*19] Randolph Consulting v.
Commissioner, 112 T.C. 1, 4 (1999); Naftel v.
Commissioner, 85 T.C. 527, 529 (1985). Our jurisdiction
to redetermine the amount of a deficiency is premised
on the issuance of a valid notice of deficiency followed
by a timely filing of a petition. Secs. 6212(a), 6213(a),
and 6214(a); see also GAF Corp. & Subs, v.
Commissioner, 114 T.C. at 521. Once validly exercised,
our “jurisdiction extends to the entire subject matter of
the correct tax for the taxable year”, Naftel v.
Commissioner, 85 T.C. at 533, including the taxpayer’s
claim of an overpayment of tax, see sec. 6512(b)(1).
In determining the correct tax for the taxable year,
section 6214(b) allows us to “consider such facts with
relation to the taxes for other years k k k as may be
necessary” but expressly deprives us of “jurisdiction to
determine whether or not the tax for any other year
k k k
has been overpaid or underpaid.”
We have previously construed section 6214(b) as
granting us the authority for “computing, as
distinguished from ‘determining,’ the correct tax
liability for a year not in issue when such a
computation is necessary to a determination of the
correct tax liability for a year that has been placed in
issue.” Lone Manor Farms, Inc, v. Commissioner, 61
T.C. 436, 440 (1974), affd, 510 F.2d 970 (3d Cir. 1975).
The relief petitioners request would require us to
determine whether their Federal income tax was

App. 24
overpaid or underpaid for eight years that are not at
issue [*20] in this proceeding (that is, respondent has
not determined any deficiency for any of those years
such that this Court would have had jurisdiction if
petitioners had timely petitioned for a redetermination
with respect to those years). This we cannot do. It is well
settled that our jurisdiction to determine an
overpayment in a deficiency case extends only to the
year before the Court. See secs. 6214(b), 6512(b)(1);
Commissioner v. Gooch Milling & Elevator Co., 320 U.S.
418, 420-421 (1943); Patronik-Holder v. Commissioner,
100 T.C. 374, 377 (1993); Kaplan v. Commissioner, T.C.
Memo. 2016-149; Kupersmit v. Commissioner, T.C.
Memo. 2014-129; Solberg v. Commissioner, T.C. Memo.
2011-221; Porter v. Commissioner, T.C. Memo. 2010154; Stewart v. Commissioner, T.C. Memo. 1998-319.
The only year covered by the notice of deficiency is 2011.
We therefore lack deficiency jurisdiction to determine
whether petitioners overpaid their tax for 2010 or any
other prior year.
C. Accuracy-related penalty
Section 6662(a) and (b)(1) and (2) imposes an
accuracy-related penalty of 20% on the portion of an
underpayment of tax attributable to negligence or
disregard of rules or regulations, or a substantial
understatement of income tax. “Negligence” includes
any failure to make a reasonable attempt to comply
with the internal revenue laws or to exercise
reasonable care in the preparation of a tax [*21]
return. Sec. 6662(c); sec. 1.6662-3(b)(l), Income Tax
Regs. “Disregard” includes any careless, reckless, or
intentional disregard of the Code, regulations, or

App. 25
certain IRS administrative guidance. Sec. 6662(c); sec.
1.6662-3(b)(2), Income Tax Regs. A substantial
understatement of income tax is defined as an
understatement of tax that exceeds the greater of 10%
of the tax required to be shown on the return or
$5,000.12 Sec. 6662(d)(1)(A). In the notice of deficiency,
respondent determined that petitioners are liable for a
section 6662(b)(1) negligence penalty and a section
6662(b)(2) substantial understatement penalty with
respect to the underpayment arising from the
disallowance of the casualty loss deduction claimed on
the 2011 return.13
[*22] We initially must determine whether respondent
has satisfied the written supervisory approval
requirement of section 6751(b)(1).14 These cases were

12 The understatement is reduced to the extent that the taxpayer
(1) has substantial authority for the tax treatment of the item or
(2) has adequately disclosed his position and has reasonable basis
for such position. Sec. 6662(d)(2)(B).
13 The notice of deficiency also determined that petitioners are
liable for a sec. 6662(a) accuracy-related penalty attributable to a
“[substantial valuation misstatement (overstatement)”, see sec.
6662(b)(3), and a “[transaction'lacking economic substance”, see
sec. 6662(b)(6). Respondent did not argue for these grounds on
brief, and he has therefore abandoned them. See Mendes v.
Commissioner. 121 T.C. 308, 312-313 (2003).
14 Sec. 6751(b)(1) provides:
No penalty under this title shall be assessed unless the
initial determination of such assessment is personally
approved (in writing) by the immediate supervisor of the
individual making such determination or such higher level
official as the Secretary may designate.

App. 26
tried, and the record was closed, before the issuance of
our Opinion in Graev v. Commissioner (Graev III), 149
T.C.__(Dec. 20, 2017), supplementing and overruling
in part 147 T.C. 460 (2016). Graev III sets forth the
history of our interpretation of section 6751(b). Suffice
it to say that, after having earlier taken a contrary
position, in Graev III we held that the Commissioner’s
burden of production under section 7491(c)15 includes
establishing compliance with the written supervisory
approval requirement of section 6751(b).
In view of the Court’s Opinion in Graev III, we
ordered respondent to file a response addressing the
effect of section 6751(b) on these cases and directing
the Court to any evidence of section 6751(b)
supervisory approval in the record. Respondent was
unable to point to any evidence in the record that
satisfies his [*23] burden of production to establish
compliance with section 6751(b) for either the section
6662(b)(1) negligence penalty or the section 6662(b)(2)
substantial understatement penalty. Respondent now
concedes the negligence penalty, but seeks to reopen
the record for the purpose of allowing him to submit
evidence to establish that he satisfied the requirements
of section 6751(b) with respect to the substantial
understatement penalty.
Whether to reopen the record for the submission of
additional evidence is a matter addressed to the sound
15 Under sec. 7491(c), the Commissioner bears the burden of
production with respect to accuracy-related penalties and must
come forward with sufficient evidence indicating that it is
appropriate to impose them. See Higbee v. Commissioner, 116 T.C.
438, 446-447 (2001).

c

App. 27
discretion of the Court. See Zenith Radio Corp. v.
Hazel tine Research, Inc., 401 U.S. 321, 331-332 (1971);
Deiningerv. Commissioner, 313 F.2d 221, 224 (4th Cir.
1963), affg in part, modifying in part, and remanding
T.C. Memo. 1961-212; Dynamo Holdings Ltd. P’ship v.
Commissioner, 150 T.C.__,__(slip op. at 10) (May 7,
2018); Butler v. Commissioner, 114 T.C. 276, 286-287
(2000). We may grant a motion to reopen the record
only if the evidence relied on is (1) not merely
cumulative or impeaching, (2) material to the issues
involved, and (3) likely to change some aspect of the
outcome of the case. See Butler v. Commissioner, 114
T.C. at 287; Fiedziuszko v. Commissioner, T.C. Memo.
2018-75, at *25; Azam v. Commissioner, T.C. Memo.
2018-72, at *25-*26; Sarvak v. Commissioner, T.C.
Memo. 2018-68, at *20. In the event these threshold
conditions are satisfied, we [*24] examine (1) the
diligence (or lack thereof) of the moving party in
submitting the evidence, (2) the possibility of prejudice
to the nonmoving party if the record were reopened,
and (3) where the interests of justice lie. See Levy v.
Lexington Cty., 589 F.3d 708, 714-715 (4th Cir. 2009).
The evidence respondent proffers consists of the
declaration of Revenue Agent (RA) Susan E. Michel
(declaration) and a Civil Penalty Approval Form
(penalty approval form). Respondent argues that the
proffered evidence establishes that RA Michel initially
determined the applicability of the substantial
understatement penalty and prepared the penalty
approval form and that her immediate supervisor,
Group Manager (GM) Alice Polser, thereafter approved
(in writing) the assertion of the penalty by executing
the form. Respondent argues that the proffered

App. 28
evidence is admissible pursuant to rules 803(6) and
902(11) of the Federal Rules of Evidence, which
together provide for the self-authentication of records
kept in the course of a regularly conducted activity of
an organization.16
[*25] Petitioners object to the admission of the
proffered evidence, arguing that the penalty approval
form is facially defective. The penalty approval form
provides a line labeled “Group Manager Signature”,
and directly adjacent thereto, a line labeled “Date”. The
penalty approval form includes the apparent signature
of GM Polser on the line provided, but the line provided
for the date is blank. Petitioners argue that “[tjhis
missing date, which should properly have
accompanied* * * [GM] Polser’s signature, thereby
attesting to the actual date of her signature, is a

16 The declaration states that in the normal course of her duties,
RA Michel: (1) initially determined that petitioners underreported
and underpaid their tax liability for 2011 and that the assertion of
the sec. 6662 penalty for a substantial understatement of income
tax was therefore appropriate; and (2) prepared, in accordance
with sec. 6751(b) and consistent with her regular practice, the
penalty approval form and requested the approval of her
immediate supervisor, GM Polser, which GM Polser subsequently
granted by executing the penalty approval form. RA Michel
declares that the penalty approval form was prepared at the time
of the occurrence of the matters set forth therein. She declares that
she has personal knowledge of the IRS recordkeeping system and
that the penalty approval form was taken from the IRS
administrative file for petitioners. She further declares that the
penalty approval form was kept in the course of regularly
conducted IRS activity, and that it is regular IRS practice to keep
such records.

App. 29
material omission, rendering the form defective on its
face.”
As to the threshold issue of admissibility, we agree
with respondent: The penalty approval form is a record
kept in the ordinary course of a business activity, and
the declaration lays an adequate foundation for its
admission.17 See Fed. R. 16 [*26] Evid. 803(6), 902(11);
Fiedziuszko v. Commissioner, at *26-*27; Sarvak v.
Commissioner, at *20-*22; see also United States v,
Komasa, 767 F.3d 151, 154-157 (2d Cir. 2014); United
States v. Daniels. 723 F.3d 562, 579-581 (5th Cir.
2013); Clough v. Commissioner, 119 T.C. 183, 186-191
(2002). Moreover, the evidence respondent proffers is
neither cumulative nor impeaching. The record is
currently devoid of evidence as to whether respondent
obtained the requisite supervisory approval of the
initial penalty determination. In the absence of such
evidence, respondent cannot meet his burden of
production concerning the accuracy-related penalty.
Thus, the evidence is also material.

17 As discussed infra pp. 26-28, we agree with petitioners’
arguments as to the merits of the proffered evidence; however,
those arguments go to the evidence’s weight, not its admissibility.
See United States v. Panza, 750 F.2d 1141, 1150-1151 (2d Cir.
1984) (finding no error where incomplete insurance company files
were admitted as business records because the “incompleteness of
the files went to the weight rather than to the admissibility of the
evidence”); Crompton-Richmond Co., Factors v. Briggs, 560 F.2d
1195, 1202 n.12 (5th Cir. 1977) (explaining that questions
concerning the “inaccuracy and incompleteness” of evidence
admitted under the business records exception were “an assault on
its weight, not on its admissibility”).

App. 30
However, we cannot conclude that the proffered
evidence, if admitted, would change the outcome of
these cases. Written supervisory approval of the initial
penalty determination must be obtained no later than
the date the Commissioner issues the notice of
deficiency (or files an answer or amended answer)
asserting such a penalty. See Graev III, 149 T.C.__
(Dec. 20, 2017); see also Chai v. Commissioner, 851
F.3d 190, 221 (2d Cir. 2017), aff g in part, rev’g in part
T.C. Memo. 2015-42; Endeavor Partners Fund, LLC v.
Commissioner, T.C. Memo. 2018-96, at *63 (“When a
penalty is asserted in a notice of deficiency k k k the
Commissioner must secure supervisory approval for
the penalty before issuing [*27] that notice to the
taxpayer.”). While the penalty approval form bears GM
Polser’s apparent signature, the line provided for the
date is blank. Thus, we cannot reliably conclude on the
basis of the penalty approval form that respondent
satisfied the requirements of section 6751(b) before
issuing the notice of deficiency determining the penalty
at issue.18
In her declaration, RA Michel asserts that GM
Polser executed the penalty approval form “[o]n or
about” the date that she requested the signature.
However, the declaration is hearsay that is admissible
18 The penalty approval form includes a header displaying RA
Michel’s name and, directly below that, what appears to be a
computer-generated date. The displayed date is the same date that
RA Michel claims to have initially determined the penalty at issue.
We agree with petitioners that the displayed date provides (at
best) evidence of when RA Michel made the initial determination
and prepared the penalty approval form for GM Polser’s signature,
not the date GM Polser actually approved that determination.

App. 31
only for the purpose of authenticating the penalty
approval form as a business record. See Fed. R. Evid.
801(c), 802, 803(6), 902(11); Azam v. Commissioner, at
*28; First Hawaiian Bank v. Bartel, CV. No. 08-00177
DAE-LEK, 2009 WL 10676756, at *11-*14 (D. Haw.
May 22, 2009) (holding that a declaration under rule
902(11) of the Federal Rules of Evidence is not itself a
business record and, if offered for the truth of matter
asserted therein, is inadmissible hearsay); United
States v. Bryant, No. 3:04-CR-00047-01, 2006 WL
1700107, at *4 (W.D. Va. June 15, 2006) (holding [*28]
that a “business record certification k k k does not serve
independently as relevant evidence k k k ; rather, it
serves merely to lay a foundation for the admission of
business records”); see also 8 Michael H. Graham,
Handbook of Fed. Evid. sec. 902:0 (8th ed. 2016) (“Rule
902 kkk operates as a hearsay exception on the limited
question of authenticity.”). Respondent has not
identified an exception to the hearsay rule that would
permit us to admit the declaration for the purpose of
establishing the date that written supervisory approval
was obtained in these cases. Moreover, despite
petitioners’ having raised the issue of the missing date
some months ago, respondent has not requested
further trial proceedings or proposed any other means
of bolstering the penalty approval form, which is
defective on its face. Under these circumstances, we
decline to exercise our discretion by ordering, sua
sponte, further trial proceedings. See Azam v.
Commissioner, at *28.
Even if we were to admit the proffered evidence,
respondent would not meet his burden of production
with respect to the penalty at issue. Because the

App. 32
proffered evidence would have no impact on the
outcome, we will deny respondent’s motion to reopen
the record. See Dynamo Holdings Ltd. P’ship v.
Commissioner, 150 T.C. at__(slip op. at 11) (“Granting
such a motion would be a meaningless gesture if it
would not affect the outcome, and it would be a waste
of judicial resources.”); Butler v. Commissioner, 114
T.C. at 287; Azam v. Commissioner, at [*29] *28-*29.
We therefore hold that petitioners are not liable for an
accuracy-related penalty for an underpayment due to
a substantial understatement of income tax for 2011.
II.

Proposed collection action

Petitioners have also petitioned for review of the
determination by Appeals to proceed with a levy to
collect the $40,277 in Federal income tax that
petitioners reported as due on their 2011 return.19

19 The Commissioner is authorized to summarily assess all taxes
reported by a taxpayer on a filed return. See sec. 6201(a)(1); sec.
301.6201-l(a)(l), Proced. & Admin. Regs.; see also Meyer v.
Commissioner, 97 T.C. 555, 559 (1991). Courts have held that the
Commissioner may--as he does here--attempt to collect taxes for a
taxable year in increments, consisting of: (1) the increment that
the taxpayer has reported on a return but not paid and (2) the
additional increment that the Commissioner believes the taxpayer
owes but did not report, i.e., the deficiency. See Fayeghi v.
Commissioner, 211 F.3d 504 (9th Cir. 2000), affgT.C. Memo. 1998297. Consequently, the bar on assessment (and collection) of a
deficiency that applies to pending Tax Court proceedings relates
only to the deficiency; assessment (and collection) of the amount of
tax that the taxpayer reported on the return may proceed
notwithstanding the Commissioner’s determination of a deficiency
for the taxpayer’s same taxable year. See id.

App. 33
Section 6330 provides that no levy may-be made on
any property or right to property of a taxpayer unless
the Commissioner first notifies the taxpayer of the
right to a hearing before Appeals. Sec. 6330(a) and (b).
At the hearing, the taxpayer may raise any relevant
issue relating to the unpaid tax or the proposed levy,
including appropriate spousal defenses, challenges to
the appropriateness of [*30] collection actions, and
offers of collection alternatives. Sec. 6330(c)(2)(A); Sego
v. Commissioner, 114 T.C. 604, 609 (2000); Goza v.
Commissioner, 114 T.C. 176, 180 (2000). A taxpayer
may contest the existence or amount of the underlying
tax liability if the taxpayer did not receive a statutory
notice of deficiency for the’ liability or otherwise have
an earlier opportunity to dispute it. Sec. 6330(c)(2)(B);
see also Sego v. Commissioner, 114 T.C. at 609.
Following the hearing, Appeals must determine
whether the Commissioner may proceed with the
proposed collection action, taking into consideration,
inter alia, the issues raised by the taxpayer. Sec.
6330(c)(3). We have jurisdiction to review Appeals’
determination. Sec. 6330(d)(1).
Where the underlying tax liability is properly at
issue, we review Appeals’ determination de novo. Goza
v. Commissioner, 114 T.C. at 181-182. Where the
underlying tax liability is not at issue, we review the
determination for abuse of discretion. IcL at 182. This
Court will find an abuse of discretion has occurred in
CDP cases where the determination by Appeals is
arbitrary, capricious, or without sound basis in fact or
law. See Giamelli v. Commissioner, 129 T.C. 107, 111
(2007).

App. 34
Petitioners argue that the settlement officer erred
in failing to apply against their 2011 Federal income
tax liability a $566,889 credit elect overpayment they
[*31] claimed on the 2011 return.20 In CDP cases, we
review Appeals’ determination concerning a taxpayer’s
claim of a credit elect overpayment for abuse of
discretion. See Weber v. Commissioner, 138 T.C. 348
(2012); Del-Co W. v. Commissioner, T.C. Memo. 2015142; Precision Prosthetic v. Commissioner, T.C. Memo.
2013-110. We must therefore decide whether the
settlement officer’s determination that petitioners were
not entitled to a credit elect overpayment of $566,889
constitutes an abuse of discretion.
In appropriate circumstances, we may determine in
a CDP case whether a credit available from another
taxable year should be applied to the taxpayer’s
liability for the year before the Court. Del-Co W. v.
Commissioner, at *6. But we can do this only when a
credit from another taxable year indisputably exists;
we do not have jurisdiction under section 6330 to
“determine an overpayment of an unrelated liability.”
Weber v. Commissioner, 138 T.C. at 366; see also Del-

20 The sole issue raised by petitioners’ representative during the
CDP hearing was that petitioners’ 2011 tax liability had been
satisfied and petitioners were due a refund. See sec. 6330(c)(2)(B).
The parties have stipulated that the settlement officer verified
that all requirements of applicable law and procedure had been
met. See sec. 6330(c)(1). In the notice of determination, the
settlement officer, noting that petitioners did not present any
acceptable collection alternatives, concluded that sustaining the
proposed levy appropriately balanced the need for efficient
collection of taxes with petitioners’ concerns regarding the
intrusiveness of the levy action. See sec. 6330(c)(3)(C).

j

App. 35
Co W. [*32] v. Commissioner, at *6-*7; Burt v.
Commissioner, T.C. Memo. 2013-140, at *16. As we
explained in Weber v. Commissioner, 138 T.C. at 371372:
An overpayment of a k k k [tax liability] that
has been determined by the IRS or a court but
has not been either refunded or applied to
another liability may be an “available credit”
that k k k could be taken into account in a CDP
hearing to determine whether the tax at issue
remains “unpaid” and whether the IRS can
proceed with collection. But a mere claim of an
overpayment is not an “available credit” but is
instead a claim for a credit; and such a claim
need not be resolved before the IRS can proceed
with collection of the liability at issue. k k k
Neither the IRS nor any court has determined that
petitioners have an “available credit” to claim against
their 2011 Federal income tax liability. In fact, rather
than an overpayment claim, petitioners’ original 2010
return reported a balance due of $52,875, and as of
September 15, 2014, petitioners’ Federal income tax
account transcript for 2010 showed a balance due,
including accrued interest and penalties, of $72,220.
Thus, the original 2010 return provides no support for
petitioners’ credit elect overpayment claim.
Petitioners did make credit elect overpayment
claims on the two 2010 amended returns. The first
2010 amended return claimed an overpayment of
$587,487, which petitioners elected to have applied
against their 2011 tax liability. The second 2010
amended return claimed an overpayment of $566,889,

)

App. 36
which petitioners again elected to have applied against
their 2011 tax liability. However, [*33] the settlement
officer, having reviewed petitioners’ account
transcripts, found that the IRS had disallowed both of
petitioners’ 2010 refund claims. Moreover, there is no
evidence in the record that petitioners filed any suit for
a refund for 2010 or made the settlement officer aware
that they had done so.21 This Court lacks jurisdiction
“to make ‘available’ a credit that is currently not
available because the IRS has disallowed it.” Weber v.
Commissioner, 138 T.C. at 368; see also Robinson v.
Commissioner, T.C. Memo. 2017-207, at *16; Morris v.
Commissioner, T.C. Memo. 2016-16, at *20-*21; DehCo
W. v. Commissioner, at *6-*8; Burtv. Commissioner, at
*16-*17; Precision Prosthetic v. Commissioner, at *9
(“[T]he Court can consider only nonrefunded or not yet
applied ‘available’ credits arising in nondetermination
years when determining whether a tax liability at issue
has been reduced or eliminated.”); Everett Assocs., Inc.
v. Commissioner, T.C. Memo. 2012-143, slip op. at 16
(“[Ujntil the credit has fully materialized, the taxpayer
merely asserts a claim for credit which is beyond the
scope of our jurisdiction in a CDP case.”).
In sum, petitioners have not shown that they have
an “available credit” for 2010 that can be taken into
account in determining the extent to which the tax
liability for 2011 remains unpaid. Rather, petitioners’
contention that they are [*34] entitled to the $566,889
credit elect overpayment claimed on the 2011 return
constitutes--at most--a “claim for credit”, and such
21 In fact, at trial petitioners conceded that they had not filed any
suit for refund with respect to their 2010 taxable year.

App. 37
claims “need not be resolved before the IRS can proceed
with collection of the liability at issue.” Weber v.
Commissioner, 138 T.C. at 372; see also Del-Co W. v.
Commissioner, at *7-*8; Burt v. Commissioner, at *16*18; Precision Prosthetic v. Commissioner, at *8-*10;
Everett Assocs., Inc, v. Commissioner, slip. op. at 1617.
The only issue petitioners raised during the CDP
hearing involved their claim that they had overpaid
their Federal income tax for prior years. The
settlement officer verified that petitioners had no
available credits from prior taxable years and that they
did not otherwise make any payments toward their
2011 tax liability. He explained to petitioners that the
refunds claimed for prior taxable years had been
disallowed and that as a result there were no amounts
available to reduce their 2011 tax liability. After
verifying that all applicable law and procedures were
followed, he concluded that sustaining the proposed
levy appropriately balanced the need for efficient
collection of taxes with petitioners’ concerns regarding
the intrusiveness of the levy action. Thus, we hold that
the settlement officer did not abuse his discretion by
issuing the notice of determination sustaining the
proposed levy action.
[*35] To reflect the foregoing,
Decision will be entered
under Rule 155 in docket
No. 27857-13 and for
respondent in docket
No. 15847-14L.

App. 38
UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket No. 15847-14L.
[Filed August 23, 2018]
LOUIS S. SHUMAN & SANDRA SHUMAN,
Petitioners
v.

)
)
)
)
)

COMMISSIONER OF INTERNAL REVENUE, )
Respondent
)
DECISION
Pursuant to the determination of this Court as set
forth in its Memorandum Opinion (T.C. Memo. 2018135) filed August 23, 2018, it is hereby
ORDERED AND DECIDED that respondent may
proceed with the collection action with respect to
petitioners’ Federal income tax liability for taxable year
2011 as determined in the notice of determination
concerning collection actions(s) under section 6320
and/or 6330, upon which this case is based.
(Signed) Joseph H. Gale
Judge
ENTERED: AUG 23 2018

App. 39

APPENDIX C
UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket Nos. 27857-13, 15847-14L.
[Filed November 30, 2018]
LOUIS S. SHUMAN & SANDRA SHUMAN,
Petitioners,
v.

)
)
)
)
)

COMMISSIONER OF INTERNAL REVENUE, )
Respondent
)
ORDER
These cases were tried and submitted at the New
York,'New York trial session on December 10, 2014. At
that trial session, the Court reserved ruling on the
admission of Exhibits 50-P and 51-P. After due
consideration and for cause, it is
ORDERED that Exhibits 50-P and 51-P are deemed
not admitted nunc pro tune as of August 23, 2018.
(Signed) Joseph H. Gale
Judge
Dated:

Washington, D.C.
November 30, 2018

App. 40

APPENDIX D
UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket Nos. 27857-13, 15847-14L.
[Filed November 30, 2018]
LOUIS S. SHUMAN & SANDRA SHUMAN,
Petitioners,
v.

)
)
)
)
)

COMMISSIONER OF INTERNAL REVENUE, )
Respondent
)
ORD E R
Pursuant to the determination of this Court as set
forth in its Memorandum Findings of Fact and Opinion
(T.C. Memo. 2018-135), filed August 23, 2018, the
Court severed the consolidation of the cases at Docket
Nos. 27857-13 and 15847-14 L, and entered a decision
for respondent in the case at Docket No. 15847-14L. On
September 24, 2018, petitioners filed a Motion for
Reconsideration of Findings or Opinion Pursuant to
Rule 161,1 wherein petitioners seek reconsideration of
the Court’s Opinion in these two cases.

1 Rule references are to the Tax Court Rules of Practice and
Procedure, available on the Court’s website, www.ustaxcourt.gov.

App. 41
In their Motion, petitioners argue that the Court
ruled, in error, that “Petitioners [sic] claim of an
overpayment from 2010, which Petitioners elected to
apply toward their 2011 federal income tax, in the
amount of $566,889 was not substantiated.”
We did not reject petitioners’ credit elect
overpayment claim on the grounds that it was not
properly substantiated. Rather, in the case at Docket
No. 27857-13, we held that because the only year
covered by the notice of deficiency is 2011, under
section 6214(b) we “lack deficiency jurisdiction to
determine whether petitioners overpaid their tax for
2010 or any other prior year.” Shuman v.
Commissioner, T.C. Memo. 2018-135, slip op. at 20. In
the case at Docket No. 15847-14L, we held that because
the Internal Revenue Service disallowed both of
petitioners’ 2010 refund claims, and there was no
evidence in the record that petitioners filed a suit for
refund or made the settlement officer aware that they
had done so, petitioners failed to show that they have
an “available credit”, and we “lack[] jurisdiction to
make ‘available’ a credit that is currently not available
because the IRS has disallowed it.” IcL, slip op. at 33
(internal quotation marks and citations omitted).2
On November 26, 2018, petitioners filed a Notice of
Appeal with respect to the case at Docket No. 1584714L. Accordingly, it is

2 In their Motion, petitioners contend that Exhibit 51-P “is relevant
to this case on the issue of substantiation.” Because we rejected the
credit elect overpayment claims in both cases on grounds other
than substantiation, Exhibit 51-P is irrelevant.

App. 42
ORDERED
that petitioner’s Motion for
Reconsideration of Findings or Opinion Pursuant to
Rule 161, filed September 24, 2018, in the case at
Docket No. 27857-13, is hereby denied. It is further
ORDERED
that
petitioners’ Motion for
Reconsideration of Findings or Opinion Pursuant to
Rule 161 filed September 24, 2018, in the case at
Docket No. 15847-14L, is hereby denied as moot.
(Signed) Joseph H. Gale
Judge
Dated:

Washington, D.C.
November 30, 2018

App. 43

APPENDIX E
UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket No. 27857-13.
[Filed December 7, 2018]
LOUIS S. SHUMAN & SANDRA SHUMAN,
Petitioners,
v.

)
)
)
)
)

COMMISSIONER OF INTERNAL REVENUE, )
Respondent
)
ORDER AND DECISION
On August 23, 2018, the Court filed its
Memorandum Findings of Fact and Opinion (T.C.
Memo. 2018-135), directing entry of decision in this
case pursuant to Rule 155.1 On November 19, 2018,
and November 20, 2018, petitioners and respondent
filed, respectively, Computations for Entry of Decision.
As directed by the Court, respondent filed a First
Supplement to Computation for Entry of Decision on
December 6, 2018.

1 Rule references are to the Tax Court Rules of Practice and
Procedure.

App. 44
We decline to adopt petitioners’ computation. First
and foremost, petitioners contend in their computation
that there is a deficiency of $93,229 in their Federal
income tax for the 2011 taxable year. That figure is
$10,730 more than the deficiency for which respondent
contends in his computation and, in fact, is $4,616
more than the deficiency respondent determined in the
notice of deficiency upon which this case is based,
despite the fact that respondent has conceded his
determination therein that petitioners failed to report
$17,469 of wage income. See Shuman v. Commissioner,
T.C. Memo. 2018-135, at *2 n.4.
Second, respondent states in his supplement that
petitioners erred in reporting $7,578 as a deduction for
the employer-equivalent portion of self-employment
tax, when they were in fact entitled to a deduction of
$8,642. Petitioners’ computations do not appear to
account for this increased deduction.
We agree with and adopt respondent’s computation.
The foregoing considered, it is
ORDERED that respondent’s computation is
incorporated as the findings of the Court. It is further
ORDERED AND DECIDED that there is a
deficiency in income tax due from petitioners for the
taxable year 2011 in the amount of $82,499; and
That there is no penalty due from petitioners for the
2011 taxable year, under the provisions of I.R.C.
section 6662(a).

■J

8ios lo oaa :aanaxNa
agpnp
alBD H qdasop (pauSig)
9f -ddy

r

App. 46

APPENDIX F
UNITED STATES TAX COURT
Docket No. 27857-13
Judge Joseph H. Gale
Filed Electronically
[Filed December 6, 2018]
LOUIS S. SHUMAN & SANDRA SHUMAN,
Petitioners
v.

)
)
)
)
)

COMMISSIONER OF INTERNAL REVENUE, )
Respondent
)
SUPPLEMENT TO RESPONDENT’S
COMPUTATIONS FOR ENTRY OF DECISION,
FILED NOVEMBER 20, 2018
PURSUANT to the Court’s Order of December 4,
2018, the following is respondent’s supplement to his
computations for entry of decision with an explanation
resolving apparent discrepancies identified in the
Order.
1. By Order dated December 4, 2018, the Court
directed respondent to explain discrepancies between
taxable income and tax due actually shown on the
stipulated petitioners’ 2011 tax return (the “return”) on

App. 47
the one hand, and taxable income and tax due reported
as “shown” on the return in respondent’s computations
for entry of decision on the other hand.
2. Respondent agrees with the Court’s findings in its
Order.
3. By way of an explanation, and in further support
of the numbers shown on respondent’s computations for
entry of decision, we note that taxable income shown on
petitioners’ 2011 tax return was indeed $132,550.
Based on that number, the return reported tax due of
$40,543.
4. As the Court noted in its opinion at page 2,
footnote 3, however, respondent assessed tax in the
amount of $40,277. Albeit left unexplained at trial or in
the briefs, Exhibit 1-J, pages 1 and 9 of 10,
demonstrate that the reason for the lower assessment
was an arithmetical error contained in the return.
5. Self-employment tax computed on Schedule SE
attached to the return (Exhibit 1-J, page 9 of 10)
reported only $7,578 as a deduction for employerequivalent portion of self-employment tax on Line 6 of
the Form. The $7,578 was then entered on Line 27,
page 1 of Form 1040 (Exhibit 1-J, page 1 of 10). That
number contained arithmetical error — petitioners, in
fact, were entitled to the deduction of $8,642, or $1,064
more than the $7,578 they deducted. That $1,064
subtracted from the taxable income of $132,550
reported on the return equals $131,486, which amount
is used in respondent’s computations as taxable income
“shown” on the return. Assuming the Court and
petitioners agree with respondent on this point,

App. 48
$131,486 is the correct amount of petitioners’ taxable
income as [should-have-been-but-for-the-arithmeticalerror] reported on the return. As a corollary, the correct
amount of tax arithmetically determined to have been
“shown” on the return is approximately $40,276 or
$40,277, with $1 difference due to rounding.
6. Based on the foregoing, respondent believes that
his submitted computations are correct.
Date: Dec 6 - 2018
WILLIAM M. PAUL
Acting Chief Counsel
Internal Revenue Service
By:

/s/ Alex Shlivko
ALEX SHLIVKO
Attorney
(Small Business/Seif-Employed)
Tax Court Bar No. SA0847
Suite 1500
One Newark Center
Newark, NJ 07102
Telephone: 973-681-6636

OF COUNSEL:
BRUCE K. MENEELY
Division Counsel
(Small Business/Self-Employed)
FRANCES F. REGAN
Area Counsel (Small Business/Self-Employed)
LYDIA A. BRANCHE
Associate Area Counsel
(Small Business/Self-Employed)

App. 49

APPENDIX G
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
[Filed October 22, 2019]
No. 18-2426 (L)
(015847-14L)
LOUIS S. SHUMAN; SANDRA SHUMAN
Petitioners - Appellants
v.

)
)
)
)
)

COMMISSIONER OF INTERNAL REVENUE )
Respondent - Appellee
)
No. 19-1242
(027857-13)
LOUIS S. SHUMAN; SANDRA SHUMAN
Petitioners - Appellants
v.

)
)
)
)

COMMISSIONER OF INTERNAL REVENUE )
Respondent - Appellee
)

App. 50
ORDER
The Court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en
banc.
Entered at the direction of the panel: Judge Wynn,
Judge Floyd, and Senior Judge Traxler.
For the Court
/s/ Patricia S. Connor, Clerk

App. 51

APPENDIX H
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
[Filed October 1, 2019]
No. 18-2426 (L)
(015847-14L)
LOUIS S. SHUMAN; SANDRA SHUMAN
Petitioners - Appellants
v.

)
)
)
)

COMMISSIONER OF INTERNAL REVENUE )
Respondent - Appellee
)
No. 19-1242
(027857-13)
LOUIS S. SHUMAN; SANDRA SHUMAN
Petitioners - Appellants
v.

)
)
)
)

COMMISSIONER OF INTERNAL REVENUE )
Respondent - Appellee
)

App. 52
STAY OF MANDATE UNDER
FED. R. APP. P. 41(d)(1)
Under Fed. R. App. P. 41(d)(1), the timely filing of
a petition for rehearing or rehearing en banc or the
timely filing of a motion to stay the mandate stays the
mandate until the court has ruled on the petition for
rehearing or rehearing en banc or motion to stay. In
accordance with Rule 41(d)(1), the mandate is stayed
pending further order of this court.
/s/ Patricia S. Connor, Clerk

')

App. 53

APPENDIX I
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
[Filed October 30, 2019]
No. 18-2426 (L)
(015847-14L)
LOUIS S. SHUMAN; SANDRA SHUMAN
Petitioners - Appellants
v.

)
)
)
)

COMMISSIONER OF INTERNAL REVENUE )
Respondent - Appellee
)
No. 19-1242
(027857-13)
LOUIS S. SHUMAN; SANDRA SHUMAN
Petitioners - Appellants
v.

)
)
)
)

COMMISSIONER OF INTERNAL REVENUE )
Respondent - Appellee
)

App. 54
MANDATE
The judgment of this court, entered on 08/15/2019,
takes effect today.
This constitutes the formal mandate of this court
issued pursuant to Rule 41(a) of the Federal Rules of
Appellate Procedures.
/s/ Patricia S. Connor, Clerk

App. 55

APPENDIX J

Form 668

00(c)
(Rev. February
2004)

1872 Department of the Treasury Internal Revenue Service
Notice of Federal Tax Lien

Area: SMALL Serial For Optional Use by
BUSINESS/
Number Recording Office
SELF
!
This Notice of Federal
EMPLOYED
Tax Lien has been filed
AREA #3
as a matter of public
(800)-829-3903
record.
As provided by
section 6321, 6322,
and 6323 of the
Internal Revenue
Code, we are giving a
notice that taxes
(including interest
and penalties) have
been assessed against
the following- named
taxpayer. We have
made a demand for
payment of this
liability, but it
remains unpaid.
Therefore, there is a

IRS will continue to
charge penalty and
interest until you satisfy
the amount you owe.
Contact the Area Office
Collection Function for
information on the
amount you must pay
before we can release
this lien.
See the back of this
page for an explanation
of your Administrative
Appeal rights.

App. 56
lien in favor of the
United States on all
property and rights
to property belonging
to this taxpayer for
the amount of these
taxes, and additional
penalties, interest,
and costs that may
accrue.
Name of Taxpayer
LOUIS S & SANDRA
SHUMAN
Residence
XXXX XXXXX XX
CHEVY CHASE, HD
20815-4901
IMPORTANT
RELEASE
INFORMATION: For
each assessment listed
below, unless notice of
the lien is refiled by the
date given in column (e),
this notice shall, on the
day following such date,
operate as a certificate
of release as defined in
IRC 6325(a).

App. 57
Kind Tax Period Identi­
Ending
of
fying
Tax
Number
(b)
(a)
(c)

Date of
Assess­
ment
(d)

Last Day Unpaid
for
Balanc
Refiling
e of
Assess­
(e)
ment
(f)

1040 12/31/2005

04/21/2008 05/21/2018

1040 12/31/2006

09/22/2008 10/22/2018 115542
.60

1040 12/31/2007

09/22/2008 10/22/2018 121892
.08

Place of Filing
CLERK OF THE CIRCUIT COURT
MONTGOMERY COUNTY
ROCKVILLE, MD 20850

Total

2872.
07

240306
.75

This notice was prepared and signed at
BALTIMORE, MD , on this, the 03rd day of
July, 2009.
Signature
Is/ R.A. Mitchell

Title
ACS
23-00-0008
(800) 829-3903

for THERESA HARLEY
(NOTE: Certificate of officer authorized by law to take
acknowledgment is not essential to the validity of
Notice of Federal Tax Lien Rev. Rul. 71-466, 1971 - 2
C.B. 409)
CAT No. 60025X
Form 668 (Y)(c) (Rev. 02-04)
Part 3 - Taxpayer’s Copy

App. 58

APPENDIX K

Appeals Transmittal and Case Date: APR 21
Memo -CDP
2011
Route Case To: Other
Internal Revenue Service
11510 Georgia Avenue
Wheaton, MD 20902
Attn: Sonia D Mcpherson

From: Appeals
Code: 171
AP:FE:AP:WA:M
E
1099 14th Street,
N.W.
4100 West Tower
Washington DC
20005
202-435-5758 Ext.

Feature Codes: EH Equivalent Hearing - Lien
PRIBUSCD: 203
Taxpayer(s)
SHUMAN, LOUIS S & SANDRA
XXXX XXXXX XX
CHEVY CHASE MD 20815-4901

WUNO-related
MFT/PDS:
MFT:
Tx Pd(s):
MFT:
Tx Pd(s):
MFT:
Tx Pd(s):

SSN/TIN

Work unit No.:
7110225015

App. 59
Type of Case:
DPLN

Category Code:
CDP

MFT/Tax Period(s)
200512/30 200612/30 200712/30
Disposal Information: ARDI Code: 7
Closing Code: 14
Reason Code: CS - Collection Sustained
Resolution Reason: OT - Other
Closing Information for: Filing of Notice of Lien
Sustained
Special Features, Remarks, and/or Appeals Case
Memorandum:
The filing of the Notice of Federal Tax lien was
appropriate and is sustained. Subsequently, the
taxpayer submitted amended returns for the periods
in question. Due to the amended returns there is no
balance for 2006. The office of appeals will abate the
estimated tax for 2007 per IRC 6654(e)(2). With the
adjustment, there will be a credit. There is a small
balance for 2005 which may be reduced to zero by
the amended return for the period.
ForAPS use:
TC 520 reversal information: (Need TC550 If “P” or
“S” on Joint account) (TC52x/Date):
Use TC 521:
Determination Letter. TC 521=Date determination
becomes final____.
Form 12257 (cc04). TC 521=Date waiver signed___
Form 12256 (ccl6). TC 521=Date Appeals received
withdrawal____.

App. 60
Use TC 522 for Rescission or Premature Referral,
cc20 (TC 522 date will be the same date as the TC
520):
Taxpayer’s
Representative’s Docket No.
Representative Telephone No.
AO/SO
Signature

Date

Earliest Statute Date

4/5/11

04/21/2018/CSED

Date:
4/5/2011

Area Counsel

/s/ Michael
Edwards
Michael
Edwards
Approved X
/s/ Lisa
Boudreau

Date:

Lisa Boudreau,
Acting Appeals
Team Manager
Department of the Treasury - Internal Revenue Service
Form 5402-c (Rev. 07/2006)

~\

I

App. 61

APPENDIX L
Internal Revenue Service
IRS Wash. Appeals Field Office
1099 14th Street, N.W.
4100 West Tower
Washington, DC 20005
Department of the Treasury
Person to Contact:
Michael Edwards
Employee ID Number: 0261132
Tel: 202-435-5758
Fax: 202-435-5750
Refer Reply to:
AP:FE:AP:WA:ME
In Re:
Collection Due Process - Lien
Taxpayer Identification Number:
Tax Period(s) Ended:
12/31/2005 12/31/2006 12/31/2007
Date: APR 21 2011
LOUIS S & SANDRA SHUMAN

xxxxxxxxxxx

CHEVY CHASE MD 20815-4901
DECISION LETTER
CONCERNING EQUIVALENT HEARING
UNDER SECTION 6320 and/or 6330
of the Internal Revenue Code

App. 62
Dear Mr. & Mrs. Louis S & Sandra Shuman:
We have reviewed the proposed collection action for the
period(s) shown above. This letter is our decision on
your case. A summary of our decision is stated below
and the enclosed statement shows, in detail, the
matters we considered at your Appeals hearing and our
conclusions.
Your due process hearing request was not filed within
the time prescribed under Section 6320 and/or 6330.
However, you received a hearing equivalent to a due
process hearing except that there is no right to dispute
a decision by the Appeals Office in court under IRS
Sections 6320 and/or 6330.
Your case will be returned to the originating IRS office
for action consistent with the decision summarized
below and described on the attached page(s).
If you have any questions, please contact Michael
Edwards at the telephone number shown above.
Summary of Decision
The filing of the Notice of Federal Tax Lien was
appropriate and is sustained in Appeals.
Sincerely,
/s/ Lisa Boudreau
Lisa Boudreau
Acting Appeals Team Manager

App. 63
Attachment
LOUIS S & SANDRA SHUMAN
XXX-XX-XXXX
Type of
Tax(es)

Tax
Period(s)

Date of Type of Date used
CDP hearing
to
Notice
determine
timeliness
Individual 12/31/2005 08/20/
6320 06/24/2010
Income
2009
tax
Individual 12/31/2006 08/20/
6320 06/24/2010
Income
2009
tax
Individual 12/31/2007 08/20/
6320 06/24/2010
Income
2009
tax
SUMMARY AND RECOMMENDATION
The filing of the Notice of Federal Tax Lien (NFTL)
was appropriate and is sustained in Appeals.
Subsequently you submitted amended returns for tax
years 2005 — 2007. Based on the returns, there are no
balances for 2006 and 2007. There is a small balance
owed for 2005. We requested you submit a collection
alternative which would include periods 2005, 2008
and 2009. No collection alternative was received.

App. 64
BRIEF BACKGROUND
The balances for tax years; 2006 and 2007 were the
-result of self-filed returns with insufficient
withholdings. The balance for 2005 was the result of an
additional tax assessment completed by the Internal
Revenue Service’s Examination Division. Subsequently
you submitted an original return to reduce the balance.
In your Collection Due Process appeal, you indicated
amended returns were submitted for all the periods.
The returns would reflect the cost basis for stock
options which would produce refunds for all three
years. The refunds would then reduce the balances
owed for tax years 2008 and 2009. Finally, you
mentioned submitting an Offer in Compromise or
Installment Agreement for the remaining balances.
On October 1, 2010, the Office of Appeals sent you a
contact letter scheduling a phone hearing for
November 2, 2010. In the letter, we requested a
financial statement, 433A with supporting
documentation, for a collection alternative.
After the original date for the hearing was rescheduled,
we held a phone hearing with your representative,
Phillip Miller, on November 5, 2010. Mr. Miller argued
the credits produced by the amended returns for tax
years 2005 — 2007 would reduce the tax to zero for
2008. The taxpayer would still have a balance for 2009.
Furthermore he indicated he had been in contact with
the Service. The Service indicated the credits would not
reduce the tax. Mr. Miller indicated the assessment
statute had not expired for the periods so the credits
should be available.

App. 65
We advised Mr. Miller that the returns for 2006 and
2007 were received and the adjustments completed. We
told Mr. Miller that there was a credit of $30,743.50 for
2006. With respect to tax year 2007, there is only an
estimated tax penalty of $3,693.35.
Since there is no longer a balance for tax year 2006 due
to the amended return, the estimated tax penalty for
tax year 2007 will be abated per IRC 6654(e)(2). This
IRC section allows an exception for the estimated tax
penalty if the taxpayer;
•
•
•

Had NO tax liability for the preceding
taxable year, and
Was a citizen or resident of the United States
throughout the preceding tax year
And the preceding taxable year was a 12
month year.

The exception is available for the taxpayer who
originally filed a return with a balance
With respect to the return for tax year 2005, we told
Mr. Miller there was no record the Service received an
amended return. We requested a copy to forward for
processing and any correspondence regarding the
applicable credits from the Internal Revenue Service.
We did receive the 2005 amended return from Mr.
Miller and sent the return for processing. Also, we
received a power of attorney revocation from Mr.
Miller. He indicated we should contact you directly.
On December 14, 2010, we sent a letter to you with a
review of your account. In the letter, we advised you
that the credit for 2006 of $30,743.50 couldn’t be

App. 66
utilized for any balances. The refund statute which is
generally three years from the due of the return for
prepaid credits had expired. Furthermore the refund
statute had expired for 2005 as well. The amended
returns were received more than three years from the
return due date. We advised you to submit a financial
statement for a collection alternative. We gave a
deadline of December 28, 2010.
In response to the letter, you indicated you would
submit amended returns for 2008 & 2009 but no
collection alternative was received i.e. Offer in
Compromise or Installment Agreement. Since no
collection alternative was submitted, we closed your
case.
For your information, the Notice of Federal Tax Lien
(NFTL) is released when there is no longer a balance
subject to the lien. In this case, the lien was filed for
tax years 2005 — 2007. Although there is no longer a
balance for 2006 and the estimated penalty abatement
will eliminate the balance for 2007, there is still a
balance for 2005. So the NFTL still remains
DISCUSSION AND ANALYSIS
a. Verification of legal and procedural requirements:
Appeals has obtained verification from the IRS office
collecting the tax that the requirements of any
applicable law, regulation or administrative procedure
with respect to the proposed levy or NFTL filing have
been met. Computer records indicate that the notice
and demand, notice of intent to levy and/or notice of
federal tax lien filing, and notice of a right to a
Collection Due Process hearing were issued.

App. 67
Assessments were properly made per IRC § 6201 for
each tax and period listed on the CDP notice.
The notice and demand for payment letters were
mailed to the taxpayer’s last known address, within 60
days of the assessment, as required by IRC § 6303.
There were balances when the CDP levy notice was
issued or when the NFTL filing was requested.
Prior involvement:
The Settlement Officer had no prior involvement with
respect to the specific tax periods either in Appeals or
Compliance
Collection statute verification:
The collection statute has not been suspended. The
hearing request was not timely. The taxpayer
requested and received an equivalent hearing. The
collection statute is not suspended in equivalent
hearings
Collection followed all legal and procedural
requirements and the actions taken or proposed were
appropriate under the circumstances.
Issues raised by the taxpayer
Collection Alternatives Offered by Taxpayer
You offered no alternatives to collection.

App. 68
Challenges to the Existence of Amount of
Liability
You disagreed with the liabilities because the cost basis
for the stock options was not utilized on the returns.
You subsequently filed amended returns which reduced
or eliminated the tax for tax periods 2006 and 2007.
The estimated penalty for 2007 was abated.
You raised no other issues:
Balancing of need for efficient collection with
taxpayer concern that the collection action be
no more intrusive than necessary.
We balanced the competing interests in finding the
NFTL filing appropriate. You did not offer any
collection alternatives during the CDP hearing process.
As discussed above, adjustments were made to periods
2006 & 2007 based on your amended returns. However
there is still a balance for 2005. Given your failure to
propose any collection alternative and the balance for
2005, retaining the NFTL balances the need for
efficient collection with your concern that any collection
action be no more intrusive than necessary.

App. 69

APPENDIX M

Form 668 (Z) (Rev. 1872 Department of the Treasury
10-2000)
- Internal Revenue Service
Certificate or Release of
Federal Tax Lien
Area: Serial Number
Serial
SMALL BUSINESS/SELF Number
EMPLOYED AREA #3
Lien Unit Phone: (800) 913- 562625909
6050
I certify that the followingnamed taxpayer, under the
requirements of section
6325 of the Internal
Revenue Code has satisfied
the taxes listed below and
all statutory additions.
Therefore, the lien provided
by Code section 6321 for
these taxes and additions
has been released. The
proper officer in the office
where the notice of internal
revenue tax lien was filed on
July 10, 2009, is authorized
to note the books to show
the release of this lien for
these taxes and additions.

For Use
by
Recording
Office

App. 70
Name of Taxpayer LOUIS S
& SANDRA SHUMAN
Residence
XXXX XXXXX XX
CHEVY CHASE, MD 208154901
COURT RECORDING
INFORMATION:
Liber Page UCC No. Serial No.
n/a n/a n/a
85595
Kind Tax Period Identify Date of
Ending
ing
of
Assessme
Tax
Number
nt
(b)
(c)
(a)
(d)

Last Day Unpaid
for
Balance
Refiling
of
Assess­
(e)
ment
(f)

1040 12/31/2005

04/21/2008 05/21/2018 2872.07

1040 12/31/2006

09/22/2008 10/22/2018 115542
6C

1040 12/31/2007

09/22/2008 10/22/2018 121892

'k'k'frk'k •k'k'k'k'kick'k'k'k Jckidckic

•fck-k'k'k'k'k'k'k’k *★**★*★**•* 'krkrk’k'k'krk'k

08

Place of Filing
CLERK OF THE CIRCUIT COURT
MONTGOMERY COUNTY
ROCKVILLE, MD 20850

Total

240306.
75

App. 71
This notice was prepared and signed at
BALTIMORE, MD , on this, the 04th day of May,
2011.
Signature

Title

/s/ Gonzalez

Director, Campus
Compliance Operations

(NOTE: Certificate of officer authorized by law to take
acknowledgment is not essential to the validity of
Certificate of Release of F6deral Tax Lien Rev. Rul. 71456, 1971 - 2 C.B. 409)
Form 668(Z)(Rev. 10-2000)
Part 2 - Taxpayer’s Copy

App. 72

APPENDIX N
Department of the Treasury
Internal Revenue Service
Philadelphia, PA 19255-0025
For assistance call:
1-800-829-8374
Your Caller ID: 768542
Notice Number: CP49
Date: May 16, 2011
Taxpayer Identification Number:
Tax Form: 1040
Tax Year: December 31, 2007
LOUIS S SHUMAN
XXXX XXXXX XX
CHEVY CHASE MD 20815-4901
For account of: LOUIS S & SANDRA SHUMAN
Overpaid Tax Applied to Other Taxes You Owe
We applied $1,315.72 of the overpaid tax on your 2007
tax return to the unpaid balance of other federal taxes
which our records show you owe.
You may still be due a refund if we applied only part of
your overpayment to other taxes. You also may be due

App. 73
a refund if you recently made a payment against the
other taxes that we had not credited when we applied
your overpayment. In either case, you will receive a
check for any refund due to you as long as the amount
is greater than one dollar. You must request a refund
of less than one dollar. If you have any questions,
please call us at the number listed above.
The figures below show our calculation:
How We Applied Your Overpayment
Amount of Overpaid Tax on
Your Return
Amount of Interest You
Earned on Overpayment
Total Amount Due You
Total Amount Applied

$1,285.00
;

$30.72
$1,315.72
$1,315.72

Amount to be refunded
Unless You Owe Other
Obligations

$.00

(Your refund may include interest. Please be aware
that interest you receive on tax refunds is" taxable
income to you in the year you receive it. Please retain
this notice for your records.)
Where We Applied Your Overpayment
Form(s)

Tax Period(s)

1040A
1040

December 31, 2005
December 31, 2008

Amount(s)
Applied
$406.39
$909.33

App. 74
We wanted to ensure that both you and your spouse
receive this notice, so we’ve sent a copy to each of you.
Each copy contains the same information related to
your joint account.

App. 75
B001490

CP:49
Tax Period: December 31, 2007

Philadelphia Service Center

CUT HERE
Return this voucher
correspondence.
Your Telephone Number:
( )

Best Time to Call:
AM
PM

SB

201118

with

your

payment

or

□ Correspondence
enclosed:
• Write your Taxpayer
Identification Number,
tax period and tax form
number on your inquiry
or correspondence

19254-515-18111-1

49 Internal Revenue Service
Philadelphia, PA 19255-0025
LOUIS S SHUMAN
XXXX XXXXX XX
CHEVY CHASE MD 20815-4901
XXXXXXXXX JO SHUM 30 0 200712
)

App. 76

APPENDIX O
IRS Department of the Treasury
Internal Revenue Service
Philadelphia, PA 19154-0030
Notice Number: CP 504
Notice Date: 09-20-2010
SSN/EIN:
Caller ID: 979441
71617618363237280586
LOUIS S SHUMAN
XXXX XXXXX XX
CHEVY CHASE MD 20815-4901
Urgent!!
We intend to levy on certain assets. Please
respond NOW.
(To avoid additional penalty and interest, pay
the amount you owe within ten days from the
date of this notice.)
Our records indicate that you haven’t paid the amount
you owe. The law requires that you pay your tax at
time you file your return. This is your notice, as
required by Internal Revenue Code section 6331(d), of
our intent to levy (take) any state tax returns that you
may be entitled to if we don’t receive your payment in
full. In addition, we will begin to search for other assets
we may levy. We can also file a Notice of Federal Tax
Lien, If we haven’t already done so. To prevent

App. 77
collection action, please pay the current balance
now. If you haven’t already paid, can’t pay, or have
arranged for an installment agreement, it is important
that you call us immediately at the telephone
number shown below. Current balance may include
Civil Penalty, if assessed.
Account Summary
Form: 1040A

Tax Period:
12/31/2005
Current Balance:
$463.63
Includes:
Penalty:
$0.00
Interest:
$191.69
Last Payment:
$0.00

For information on
your penalty &
interest
computations, you
may call 1-800829-8374

See the enclosed Publication 594, The
IRS Collection Process, and Notice
1219B, Notice of Potential Third Party
Contact for additional information
Questions? Call us at 1-800-829-8374
Please mail this part with your payment, payable to
United States Treasury.
Notice Number: CP 504
Notice: Date: 09-20-2010
write on your check:
1040A

12-31-2005

Amount Due:
$463.63

App. 78
Find information about filing and paying taxes at:
www.irs.gov.
Enter Keyword: filing late (or) paying late
Internal Revenue Service
KANSAS CITY, MO 64999-0202
LOUIS S SHUMAN
XXXX XXXXX XX
CHEVY CHASE MD 20815-4901
XXXXXXXXX JO SHUM 30 0 200512 670 00000046363

H

A

App. 79
Penalty and interest
About Your Notice - The penalty and interest charges
on your account are explained below. If you want a
more detailed, explanation of your penalties and
interest, please call the telephone number listed on the
front of this notice. You may call your local IRS
telephone number if the number shown on your notice
is a long-distance call for you. All days mentioned in
the paragraphs below or calendar days, unless
specifically stated otherwise.
Penalty:

$0.00

07 paying late
IRC section 6651 (a) (2)
We charged a penalty because you didn’t pay your tax
on time. Initially, the penalty is 1/2 % of the unpaid
tax for each month or part of a month you didn’t pay
your tax.
If you disagree with this penalty, see “Removal of
Penalties” in this notice.
Removal of Penalties
The law lets us remove or reduce penalties if you have
reasonable cause or receive erroneous written advice
from IRS.
Reasonable Cause
If you believe you have an acceptable reason why IRS
should remove or reduce your penalties, send us a
signed explanation. After we review your explanation,

App. 80
we will notify you of our decision. In some cases, we
may ask you to pay the tax in full before we remove or
reduce the penalty for paying late.
Erroneous advice from IRS
We will remove your penalty if all of the following
apply:
1.
2.
3.
4.
5.

You asked IRS for advice on a specific issue,
You gave IRS complete and accurate information,
You received advice from IRS,
You relied on the advice of IRS gave you, and
You were penalized based on the advice IRS gave
you.

To request removal of the penalty because of erroneous
advice from IRS, you should do the following:
(1) complete Form 843, Claim for Refund and Request
for Abatement, and (2) send it to the IRS Service Center
where you filed your return.

App. 81
IRS Department of the Treasury
Internal Revenue Service
PHILADELPHIA, PA 19154-0030
Notice Number: CP504
7161 7618 3632 3728 0562
LOUIS S SHUMAN
XXXX XXXXX XX
CHEVY CHASE MD 20815-4901
For account of LOUIS S & SANDRA SHUMAN
We wanted to ensure that you and your spouse receive
this notice, so we’ve sent a copy to each of you. Each
copy contains the same information related to your
joint account. Any amount you owe or balance due
shown should be paid only once. We will issue any
refund shown only once.
This notice contains two pre-addressed coupons for
your convenience. Please detach the appropriate
coupon and return to us in the envelope provided.
Please refer to the information below to determine the
correct address:

App. 82
To send correspondence To send a payment or
regarding this account
correspondence with a
with NO Payment
payment
Use the coupon addressed Use the coupon addressed
to:
to:
Internal Revenue Service
P.O. Box 16236
PHILADELPHIA, PA
19114-0236

Internal Revenue Service
KANSAS CITY, MO
64999-0202
D

;!

App. 83
Cut and use this coupon if you are sending us
correspondence only with
NO payment enclosed.
(For payments, please use the other coupon
attached to the notice.)
Please mail this part with your inquiry.
Notice Number: CP 504
Notice: Date: 09-20-2010
write on your check:
1040A

12-31-2005

Amount Due:
$463.63

Internal Revenue Service
P.O. BOX 16236
PHILADELPHIA, PA 19114-0236
LOUIS S SHUMAN
XXXX XXXXX XX
CHEVY CHASE MD 20815-4901
XXXXXXXXX JO SHUM 30 0 200512 670 00000046363

App. 84

APPENDIX P

IRS

Department of the Treasury
Internal Revenue Service
Memphis Appeals Campus
PO Box 622, Stop 86-B
Memphis, TN 38101-0622
Date: JUN 06 2014
Person to contact:
Name: E J Frazier
Employee ID number: 0162502
Tel: 901-786-7588
Fax: 901-786-7501
Refer reply to:
AP:CO:MEC:EJF
Taxpayer ID number:
Tax period(s) ended:
12/2011

SANDRA SHUMAN
XXXX XXXXXX XX
CHEVY CHASE MD 20815-4901
In Re:
Collection Due Process Hearing
(Tax Court)
CERTIFIED MAIL 7011 3500 0000 7167 6051

App. 85
NOTICE OF DETERMINATION
Concerning Collection Action(s) Under Section
6320 and/or 6330 of the Internal Revenue Code
Dear Mrs. Sandra S Shuman:
We reviewed the completed or proposed collection
actions for the tax period(s) shown above. This letter is
your Notice of Determination, as required by law. We
attached a summary of our determination below. The
attached summary shows, in detail, the matters we
considered at your Appeals hearing and our
conclusions.
If you want to dispute this determination in court, you
must file a petition with the United States Tax Court
within a 30-day period beginning the day after the date
of this letter. To obtain a petition form and the rules for
filing a petition, write to:
Clerk, United States Tax Court
400 Second Street NW
Washington, DC 20217
You can also visit the Tax Court website at
www.ustaxcourt.gov.
The United States Tax Court also has a simplified
procedure for an appeal of a collection action if
the total unpaid tax (including interest and
penalties) for all periods doesn’t exceed $50,000.
You can obtain information about this simplified
procedure by writing to the Tax Court or visiting
their website as shown above.

App. 86
The law limits the time for filing your petition to
the 30-day period mentioned above. The courts
cannot consider your case if you file late. If you
file an appeal in an incorrect court (e.g., United
States District Court you won’t be able to refile
in the United States Tax Court if the period for
filing a petition expired.
If you don’t petition the court within the period
provided by law, we’ll return your case to the
originating IRS office for action consistent with the
determination summarized below and described on the
attached pages. If you have questions, please contact
the person at the telephone number shown above.
Summary of Determination
The Notice of Intent to Levy was appropriate and is
sustained in Appeals. Please see the attachment for
further explanations.
Thank you for your cooperation.
Sincerely,
/s/Susan Wilks
Susan Wilks
Appeals Team Manager
Enclosure(s):
Attachment
cc: Phillip Miller

App. 87
Attachment
LOUIS S & SANDRA SHUMAN
Type of
Tax
Tax(es) Period(s)

Income

Date of
CDP
Notice

Type of Date used
hearing
to
determine
timeliness
201112 10/01/2013 6330
10/31/2013

SUMMARY AND RECOMMENDATION
You filed a request for a Collection Due Process (CDP)
hearing under Internal Revenue Code (IRC) § 6330
following receipt of a Notice of Intent to Levy and
Notice of Your Right to a Hearing. The IRS Collection
office issued the Notice of Intent to Levy on October 01,
2013 2013 via Certified Mail, Return Receipt
Requested. Your Form 12153, Request for a Collection
Due Process or Equivalent Hearing, was received on
October 31, 2013 based on the timely postmark date.
Your request was timely as it was made within the 30day period for requesting a CDP hearing.
Appeals has verified that all applicable laws and
procedures have been followed in your case. The Notice
of Intent to Levy was appropriately issued. The
proposed levy action is the appropriate action in this
case.

App. 88
BRIEF BACKGROUND
The CDP notice was for unpaid income tax liability for
your 2011 Form 1040, U.S. Individual Income Tax
Return. A review of the account transcript indicates „
that the self-assessed tax return was filed by you and
reflected a balance due at the time of fifing.
Currently, the IRS has no record of receiving your 2012
Form 1040 income tax return.
On November 5, 2013, the Appeals office issued a letter
offering you a face-to-face, telephonic, or
correspondence hearing for tax periods 2008, 2009 and
2010. Since this case was assigned to the Settlement
Officer on the same day as the hearing scheduled for
tax periods 2008, 2009 and 2010, a second conference
letter was not sent. The letter scheduled a telephonic
hearing for December 2, 2013 at 1:00 pm Central Time.
The letter requested proof of estimated tax paying
compliance, proof of withholding compliance and proof
of 2012 Form 1040 filing compliance. Since your Form
12153 did not propose a collection alternative, the
letter requested your specific proposed installment
agreement payment amount and payment date for
consideration and the completed Form 433-A with
supporting documentation attachments. Your complete
response was requested by November 19, 2013.
However, you did not provide the information
requested by the deadline given.
The conference was held with your representative on
December 4, 2013. The Settlement Officer advised the
representative that the liability issue could not be
raised in the hearing because the Statutory Notice of

App. 89
Deficiency had been received. He informed the
Settlement Officer that he had filed with Tax Court on
that issue. The Service had denied the refund claims;
therefore, there was no amount available to reduce the
2011 liability. We discussed how to file an 843 claim
which was explained in the denial letters.
Additional information was received on 01/03/2014. The
information was reviewed but it did not change the
determination.
As of today, you have not provided proof of filing
compliance, proof of paying compliance, or the financial
data for any collection alternative. Therefore, the
Appeals office is issuing the determination that the
Notice of Intent to Levy was appropriately issued for
the applicable tax period. The proposed levy action is
sustained in full.
DISCUSSION AND ANALYSIS
a. Verification of legal and procedural requirements:
Appeals has obtained verification from the IRS office
collecting the tax that the requirements of any
applicable law, regulation or administrative procedure
with respect to the proposed levy or NFTL filing have
been met. Computer records indicate that the notice
and demand, notice of intent to levy and/or notice of
federal tax lien filing, and notice of a right to a
Collection Due Process hearing were issued.
Assessment was properly made per IRC § 6201 for each
tax and period listed on the CDP notice.

App. 90
The notice and demand for payment letter was mailed
to the taxpayer’s last known address, within 60 days of
the assessment, as required by IRC § 6303.
There was a balance due when the CDP levy notice was
issued or when the NFTL filing was requested.
Prior involvement:
I had no prior involvement with respect to the specific
tax periods either in Appeals or Compliance.
Collection statute verification:
The collection statute has been suspended; the
collection period allowed by statute to collect these
taxes has been suspended by the appropriate computer
codes for the tax periods at issue.
Collection followed all legal and procedural
requirements and the actions taken or proposed were
appropriate under the circumstances.
Issues raised by the taxpayer
Collection Alternatives Offered by Taxpayer
You offered no alternatives to collection. The
conference letter requested financial data and proof of
compliance for consideration of a collection alternative;
however, the information was never received.

±3

App. 91
Challenges to the Existence of Amount of
Liability
You disagreed with your liability because you had not
been allowed a claim for refund from a prior tax period.
You filed amended returns which were denied. You also
disagreed with how an audit was handled for this tax
period. This issue could not be raised at the hearing
because the tax has not been assessed and IRS records
indicate you received the Statutory Notice of
Deficiency. Your representative informed us and we
confirmed that you have filed with Tax Court on that
issue.
You raised no other issues:
Balancing of need for efficient collection with
taxpayer concern that the collection action be
no more intrusive than necessary.
Enforced collection is inevitably intrusive, but it does
not appear that any less intrusive action will meet the
liability. Since you did not present any acceptable
alternatives, we believe this determination adequately
balances your concerns against the need to efficiently
collect the outstanding liability without being overly
intrusive.

appeal:

J1040X
fw». JwuryMlO)

uuc:

i-iieu: uj/uo/^uia

Ktzi I Klt^ I tU

rujutto^ioiyica^uDJ UF JL^y;

DmwVTw" tTOtt TmaAiFy-IrTwrtl flum Sjrvfc"

Amended U.S. Individual Income Tax Return
» Se« separate tnstnjctians.
Yewlifinm

Vow fWW font* and M4d« MM

Louis S.

OfflKlV 14*4-0074
Your lociX »sour»1y msTOw

Shuman

It ■ MM i*B*ny«ur •pouts'* fist Mm* end mlddls Must

Sandra

To* toauMl aodai MaMtriwrPw

Your spools'* Utl n»ma

Shuman

Your currant ftama rMnn <numbar and atraaQ. If you Han* a P.0. Baa. aaa 019a * altha kittmctlon*.

Ape kol

Your pttoaa tuanbar

rwa city. loan or poB erfica, atata, and ZIP coda, ft you Kara a faratgfl addtaaa, taa pipa t of mavuctlana.

Chevy Chase, Maryland 20B1S______________________________________________________
All filer* must complete fines A. B, and C.
A

_______________ ____

Amended return ruing status, You must check one boa even it you are not changing your filing status. Caution. You cannot
change your fitng states from joint to separata rattens alter the due date.

□ Wa
□ Ouaijfvtno u4dowfeO

S Manted filing faintly
O Minted fifing caparstaty
□ Head of household pf the quallMnooeragi be chid but not your dependant, aa« p««;aSalinMnicttoni.t

B

Th/s return is for calendar year G 2009
Other year. Enter one: calendar ynar

□ 200s
□ 20C7
(El 2006
or fecal year (month and year ended):

C

Explanation of changes, tn the space provided betow, tell us why you are filing Form 1040X.

Payments proparly applied to 2006, are detailed and explained in Atch A-01, and Ateachswnts 01-27 Included
there. Correction of taxpayer's 2006 return filed on 8/6/08 (Atcb 07). as amended by Form 1040K for 2006
filed on 7/23/10 {Atch 07). IRC 6030tb),IRC 6402) 26 CPA 302.6402-J(a) IS), XBC 6511) Western v. U.S.
123 P.3d 1024 (Pad. Clr. 2003). Fsrksr Kanlfin v. U.S. <U.S. Court Federal ClSlna. 20061.
These corrections arise from taxpayer(a) stock option Income being taxed, without deduction for stock
option coat basis.
Income and Deductions

Cotracl Amount

1 Adjusted gross income (see page G of insnucilonsX tl net opersting lost (N0L) carryback It included, check here □

t

69S.799

t Itemized deductions or standard deduction (sob page 8 of Instructions).......................................................

2

124,2S4

3 Subtract line 2 from tin© 1.........................................................................................................................................

3

5?1 . 545

4 Exemptions. If changing, complete tho Exemptions section on the back and enter Ore amount from
tins 30 {see page 8 of Instructions)............................................ ...........................................................................
5 Taxable income. Subtract tine 4 from line 3........................................................................................................
Tax Liability
e Tax (see page 7 of instructions). Enter method used to figure tax: Schedule Y-1
7 Credits (sea page 8 of Instructions). If general business crecfit carryback Is included, check here □
8 Subtract line 7 from tine 6. If the result is zero or less, enter -0-..................................................................
8 Other taxes (see page 8 of instructions)
10 Total tax. Add lines 8 and 9 . . .

4

4,400

5

567,145

8
7

172,351

8

172,351

9
10

172.351

Payments
11 Federal income tax withheld end excess social security and tier \ RRTA lax withheld (if changing,
see page 8 of Instructions)....................................................... ................................................................ .....
12 Estimated tax payments, including amount applied from prior year's return (see page 8 of instructions)
13 Earned income oedit (EIC) (see page 8 of Instructions).......................................................................................
14 Refundable credits from □ Schedule M or Fomifsl □ 2439 0 4136 05405
□ 8601 □ 8612
□ 6663 □ aaa* or O other (ipedfy*
15 Total amount paid with request for extension of time to file, lex paid with original return, and
additional tax paid after return was filed (see page 9 of Instructions).............................................................
18 Total payments. Add Enas 11 through 15............................................................................................. ..... . .
Refund or Amount You Owe (Afore. Mow 6-12 weeks to process Farm 1Q4QX.)
17 Overpayment, if any. m shown on original return or as previously adjusted by the IRS (see page 9
of instructions)...............................................................................................................................................................
19 Subtract line 17 from tine 16 Of less than zero, see page 9 of Instructions)..................................................
19 Amount you owo. If Eno 10 Is more than fine 18. enter the difference (see page 9 ot Instructions) .

11
12
13

poa.aei
641■34S

14
15
16

17
18
19
20
21

843.626

843,626

20 If line 101s less than line 19. enter the difference. This Is the amount overpaid on this return . . . .
671.275
21 Amount of fine 20 you want refunded to you............................
22 Amount of fine 20 you want applied to your (enter veart; 2007
estimated tax(22)671,275
Compiala end sign this form on Pay* 2.

a

For Paperwer* Reduction Act Notice, *aa pap* 11 of instruction*.

Cat. ha. 113601

280

For" 1040X PW». 014010)

ATCH 001-2006
Exhibit 31-P
Page 1 of 14

12Z

PT 3° Z
a-T£

9002*100 HDXV
BiK-to «*4xq»ol

»C0Xj'«M If q*M *0 UOQK P«*

mj

ni*«*o □

>«*«$*« matfui-im » *^P4 «♦ »**w i.m»j

W

◄

«^0

-V&aiV*MB*4^7W»M(V«-MVI*«t.WW05

's£/fWjh

<M3 **fl 9.J«i*d*Jd P**d
\
mw4>m«

*1*0

""V"**'**!* ^ wpfi

■0(isv«ou« Aut cm«n v>NA »ioq) uoiituuatu*w«
'•te*Ju«tt pu» immo «w) (| uumu s*puMu* owi 'jstjjq pu* •Spa'Mu'' Mu p tnq **j«w
OuifetaiJMM 6u>onRul ■urnm pcpuMu* im PM*uj»»m*(11 itwowtunjuttutyo vt P*fl M"** I

jmOuOjo uoqtivpcQ

'j*(410t

i*0*»

'nuauMim pOt^pfoapc
I 'ktiftA p nuniM J*(X*1

-■pioMj jjioA jo) uuoj *jhit jo Moo • d*>* ot J*qu>*u>«tj

djan u6j$
UUO) CJ((] »|WP pci l*S □
upomjOtpuesuuOipaOustpjowaupue Buouiraop Ouqiedcins Au« vpvuy □
paj(nJ»jji‘;*6eduo it yDoonucj wu* WPpttJP^ Q
i oflod UO U vSnoiU) i «9uj oioitfwog Q
l tM uo Opue 'a V MU!| *190(1100 □
joqumu Aiunoo* ppoi pu* ‘vsoipfM ‘owsii *M0iuoo □
Ol wquwwat ‘iujoj sit) Ou(rs\IJ OJOpe
)*iJHOOio
'wop mm irtq *putj aw oj oO oi cs w«<* Aj«nouajd joupp midi moA pu* unjw iuol e q too p aixj ipMjj Q
'OpMXiinq'punjocloi o6o)CS |ue« Ajsnowajd km p;p noA j| »j«j ipoto q
punpj moA oonpai jo kvj jfioA onaowj too qm JftOpqeuppwjQ

punj uPicdmep uotpaa lequapfsaud

n□

ft

(tuO)PA4wij*0l *6*d
•at) m»o m pftp jqj (*vr
•«»<«*"*»* xoq ((oxo (p)

no* m tiutwirw

j*QttntfA|i#tpa«

«.wepu*0*o W

ffx* sjuopuodao to)

MjEujrri

•uoutw^M

HWWaAQi*ti*tJaaa,«i(Wpu»OWMJCmBiouJHipn0jp»»jBwnj(puoP*m»«0{«*(ttOCUBWjpwMau*pu*dapTWPn 1C
uKOi oia p i *0*0 wo f »wi uo PCS ojbij u»>saj oi/i jojug '$£ pcs 82 fravi PPV oc
OC
K
6002 m 9 »u>i JO '9002 ®»2 •L*!'»169 ujjoj iuojj li«ui *w jam* 'Qistep uiaisaMpm t Aq paoijdsp
mnpj^pu Cutsnou jo) pnowe uOidujsr* us Buuasp bjb noA Jj -goOZ JO) 9 *W| >169 uuoj ujOj) wxiouj*
mu joiu* ’sujioi mj>3|1xih Aq paosidip qtnpwipuj Oujgftoq jo) umoun vo>0uie*> ut Cufuvtp m noA g a
BB
........................... (two*»ni)SU!pot«BeOOM)flu0bMu*a»naAjeoAPV)JOt8ZMj)|JO)swjq9niRui
MU U1uwous lunouts uoqdUMKP Pifl Aq u auj uo pauttop cuopduM* to Jpqiunu «u) AjOim 8Z
LZ
..................................................... 92 uBnojqi 9; PM11 ppy nwgAuMi* p wgiunu rwox U
K
........................................ ................................................ siuepvOdap jeuo W
$2
............................... uO'IbjsOm JOM)OMpoionpnoAiai*aAi|py pjpQv*uajpiup)(j»puMfeP''iOA Cl
*2
...........................r>0<m!»p*jiJ|0c*U*jps(ptU*pUM5«P«lA *2
"C? jpSjnofpfaqKfampMniiKtgpwwnoOwpwtfapganoAagip wuoMBWfl vof jnrj ewes put jiVX* ct
*Mjpxvjtut XOWI turty 0 01 a<w pu* Rjopwisuf MPCI t*uo^ jo 0*0( uuo* ws

ptuna

■J9)S*sp uja|S3«p<n 8 » EUliitx xwouinn Aq paaspsip sienpyupui Ouisnoq jo| junouj* uoqduma Mq Bumojosp jo Ouirocu) •
pawep (nuapuadsp pue KUDfjKQtuMtdumK p jaqunj wq 6uis*«joep jo Swstooui •
:ojb noA i! Ajiro usd na aupuoo
*uoqdnj»»3

jo 'Ouwmws bjpkoA ujrt»j aw p 09 mi uo

C*^

(p,Q7T in ■bQQ>S73RllR^f'0«nfn^l

tOIOMP <^P«0*5l »*<

RTn7/an/m :nni.M

n~1 nmi ctjvi

q-q

:nnn

7-b7T-RT iipnririw bwncn

App. 93
To:
1. Dept, of the Treasury
Internal Revenue Service
Kansas City, MO 64999-0002
2. Dept, of the Treasury
Internal Revenue Service
Philadelphia, PA 19255-0525 (2010)
From:
Louis & Sandra Shuman
XXXX XXXXXX XX
Chevy Chase, Md 20815
Date: April 16, 2012
Taxpayer(s) Louis & Sandra Shuman (“taxpayer”)
submit this letter in support of the following:
1.1) Amended and corrected federal income tax
returns and refund claims as follows:
a) for tax year 2005, as corrected by Form
1040X (Atch 001-2005);
b) for tax year 2006, as corrected by Form
1040X (Atch 001-2006);
c) for tax year 2007, as corrected by Form
1040X (Atch 001-2007);
d) for tax year 2008, as corrected by Form
1040X (Atch 001-2008);
e) for tax year 2009, as corrected by Form
1040X (Atch 001-2009);
f) for tax year 2010, as corrected by Form
1040X (Atch 001-2010); this return was
previously filed with IRS without signature,
in error.

App. 94
1.2) This letter is included, and incorporated by
reference, in each of the amended returns/refund
claims for the following tax years: 2005; 2006; 2007;
2008; 2009; and, 2010. This letter is identified as Atch
A-01 for each of the above returns: 2005-2010.
1.3) This Letter (Atch A-l), and its supporting
attachments is the same for each amended
return/refund claim for 2005-2010. Each amended
return/refund claim for 2005-2010 directly impacts the
other amended returns/refund claims for 2005-2010.
Accordingly, these amended returns/refund claims are
filed together, with Form 1040X for each year filed in
chronological order, and this Letter (Atch A-01) filed
immediately thereafter, along with its Attachments.
1. Background:
1.1 Tax Years 2005-2007
IRS filed a tax lien against taxpayer dated 7/3/09,
based on IRS demand for unpaid income taxes for the
years 2005-2007, at that time amounting to:
$240,306.75. (Atch 01).
IRS thereafter levied on taxpayer’s bank accounts
(Atch 02) and collected the following amounts:
$2,531.99 (Atch 03); $153.50 (Atch 04); and $74.14.
(Atch 05). Total amount levied on taxpayer’s bank
accounts: $2,759.63.
On 7/23/10, taxpayer filed amended returns for 2005
(Atch 06); 2006 (Atch 07); and 2007 (Atch 08). These
amended returns for 2005-2007 made claims for refund
based on overpayments of income tax for each of these
years.

j

App. 95
By Letter dated 9/20/10 (Atch 08A), IRS sent
taxpayer a notice of intent to levy for an unpaid income
tax balance of $463.63 for 2005 based on Form 1040A.
Form 1040A (Atch 13) was an IRS substitute income
tax return, filed on 9/3/07 (“T-IRS-1040A-2005”) for
2005, because taxpayer’s return for 2005 was not filed
on time. IRC 6020(b) treats T-IRS-1040A-2005 as legal
on its face for all lawful purposes. T-IRS-1040A-2005
was therefore a valid taxpayer return for all lawful
purposes.
Taxpayer requested a hearing before the IRS
Appeals Field Office (“IRS Appeals”), and taxpayer was
allowed an equivalent due process hearing. By decision
dated 4/21/11, the Appeals Field Office decided that
there was no tax due for 2006 and 2007, but there was
a small amount of tax due for 2005. (Atch 09).
While taxpayer’s case was pending before IRS
Appeals, IRS notified taxpayer on 2/17/11, that
taxpayer’s matters were being referred to IRS in
Holtsville, N.Y. (Atch 10)
Then, by IRS Letter dated 5/16/11, IRS decided that
taxpayer’s 2007 return reflected an overpayment of
$1,315.72 which was applied in part ($406.39) to
eliminate any tax due for 2005, and $909.33 was
applied to tax year 2008. (Atch 11). This letter also
stated taxpayer may still be due a refund if IRS only
applied part of taxpayer’s overpayment to other taxes.
The IRS tax lien was released by Certificate of
Release of Tax Lien, 5/4/11 (“Certificate”). (Atch 12).
This Certificate, along with IRS Letter dated May

App. 96
5/16/11 (Atch 11) confirms that taxpayer’s income tax
liabilities for 2007-2009 have been satisfied in full.
The sole basis for IRS Appeal’s denial of taxpayer’s
refund claims for 2005-2007, is that the refund claims
were untimely, since the refund claims were not filed
within 3 years of the due date for the returns (Atch 09).
In this case, tax payer’s refund claims were timely
because the refund claims were filed within three years
of filing their returns, which were filed late. It is IRS’s
formal position that a taxpayer has 3 years, from the
date of filing the tax return, to file a refund claim, even
if the return was filed untimely. Rev. Rul. 76-511,
1976-2 CB 428. Weisbartv. U.S. 222 F.3d 93 (2nd Cir.,
2000). Taxpayer respectfully requests that the refund
claims for 2005-2007, and as applicable to 2008-2010,
be reconsidered and adjusted, credited and/or abated
on the basis that the refund claims were timely, based
on IRS’s own rules.
1.2 Tax Years 2008-2009
Taxpayer’s 2008 return (Atch 20), and 2009 return
(Atch 21) was filed on 7/23/10. Taxpayer’s Form 1040X
amended return for 2008, dated and filed 4/16/12, is
included here and identified as Atch 001-2008.
Taxpayers Form 1040X amended return for 2009, dated
and filed. 4/16/12, is included here and identified as
Atch 001-2009.
On 9/6/10, IRS sent taxpayer a notice to pay
$53,718.54 for 2008 (Atch 22). On 9/6/10, IRS sent
taxpayer s notice to pay $52,575.47 for 2009 (Atch 23).
On 10/11/10, IRS sent taxpayer notice of intent to levy
$54,118.64 for 2008 (Atch 24). On 10/11/10, IRS sent

'

App. 97
taxpayer of notice of intent to levy $53,024.48 for 2009
(Atch 25). On 2/17/11, IRS notified taxpayer that
taxpayer’s matters were being referred to IRS in
Holtsville, N.Y. (Atch 10).
Taxpayer’s amended return for 2008 (Atch 0012008) reflects an overpayment of $667,707, as detailed
in this letter, and the supporting Attachments.
Taxpayer’s amended return for 2009 (Atch 001-2009)
reflects an overpayment of $618,403, as detailed in this
letter, and the supporting Attachments. Taxpayer
respectfully requests that these refund claims for 2008
and 2009, be considered and adjusted, credited and/or
abated, based on the refund claims for 2005-2007, and
the explanations set out in this letter, and the
supporting documents.
1.3 Tax Year 2010
Taxpayer’s 2010 return (Atch 26), was filed on
10/13/11 (Atch 26). This return was not signed by
taxpayer. Taxpayers Form 1040X amended return for
2010, dated and filed 4/16/12, is included here and
identified as Atch 001-2010, and amends and corrects
the return filed on 10/13/11.
On 12/26/11, IRS sent taxpayer a notice of intent to
levy $56,556.56 for 2010 (Atch 27). Taxpayer then
requested an IRS Appeal due process hearing, and
stated that taxpayer would by filing an amended and
corrected return. Taxpayer was unable to file the
amended return before this date because of serious
personal, family medical issues.
Taxpayer’s now filed amended return for 2010 (Atch
001-2010) reflects an overpayment of $587,487, as

App. 98
detailed in this letter, and the supporting Attachments.
Taxpayer respectfully requests that this refund claim
for 2010 be considered and adjusted, credited and/or
abated, based on the refund claims for 2005-2007, and
2008-2009, and the explanations set out in this letter,
and the supporting documents.
2. Stay or Enforcement
There is no tax due for 2005-2007, so there is no
basis for enforcement action for 2005-2007. Taxpayer’s
refund claims for 2005-2007, when credited and/or
abated to 2008-2010 properly satisfy any taxes due for
2008-2010.
The sole issue is the timeliness of the refund claims
for 2005-2007 which taxpayer claims have not been
properly applied to 2005-2010. Taxpayer claims
timeliness based on IRS’s own settled rules. For these
reasons, taxpayer respectfully requests stay of
enforcement action, for 2008-2010, while these refund
claims are pending before IRS. Additionally, to protect
taxpayer’s rights here, taxpayer also requests and
proposes an instalment agreement, and a hearing
before IRS Appeals, while IRS reviews taxpayer’s
amended returns and refund claims presented in this
letter, along with the supporting Attachments included
here.
3.Claims For Refund
Taxpayer’s refund claims arise from the fact that,
beginning in tax year 2003, taxpayer began to receive
stock options, as an additional form of compensation.
But, on the returns for 2003-2008, which were prepared
by tax professionals, taxpayer’s income from stock

App. 99
options were not reduced by taxpayer’s basis (cost). The
failure to reduce stock option income by stock option
cost basis, resulted in large overpayments of income
tax, based on income taxpayer never actually received.
The following calculates the refund claims for 20052010, as follows:
3.1) Refund Claim for Tax Year; 2005
A. Timeliness of Refund Claim:
On 9/3/07, IRS filed a substitute income tax return
for 2005 (T-IRS-1040A-2005), because taxpayer’s
return for 2005 was not filed on time. IRC 6020(b)
treats T-IRS-1040A-2005 as legal on its face for all
lawful purposes. T-IRS-1040A-2005 was therefore a
valid taxpayer return. (Atch 13).
On 8/8/08, taxpayer’s 2005 prepared return (T-10402005) was filed. (Atch 06; Atch 13). Whether classified
as an original return, or as an amended return, T-10402005 was treated as an amended return by IRS. (Atch
13). T-1040-2005 met the definition of a refund claim,
since it reflected an overpayment of income tax on the
return. 26 CFR 301.6402-3(a)(5). As an amended return
T-1040.2005 is deemed to relate back to the original TIRS 1040A-2005, which was filed on 9/3/07, so that T1040-2005 is also deemed to have been filed on 9/3/07.
Western v. U.S. 323 F.3d 1024 (Fed. Cir. 2003).
IRS’s filing of the substitute return T-IRS-1040A2005, tolled the time for assessment of tax, and IRS has
acquiesced in the position that when cases are open for
IRS to make corrective assessments on a return, the
taxpayer is entitled to amend the return within the

App. 100
same time frame. Western v. U.S. 323 F,3d 1024 (Fed.
Cir. 2003).
On 7/ 23/10 taxpayer filed a second amended return
(T-AR-2005) (Atch 06; Atch 13). IRS treats an amended
return as merely perfecting the original refund claim,
and relates back to the original refund claim, and is
timely if the original refund claim was timely. Western
v. U.S. 323 F.3d 1024 (Federal Circuit, 2003). Since (TAR-2005), relates back to T-1040-2005, and T-IRS1040A-2005, T-AR-2005 and T-1040-2005 are both
treated as filed on 9/3/07.
Since taxpayer is entitled to have the 2005 refund
claims (T-1040-2005; and T-AR-2005) relate back to
9/3/07, then 9/3/07 is the proper date for the filing of
the 2005 refund claims. Even if 9/3/07 were not treated
as the filing date for taxpayer’s 2005 refund claims
(original and/or amended), T-1040-2005 was filed on
8/8/08, and so the 2005 refund filing date would not be
NLT 8/8/08.
Although the timeliness of a refund claim is
generally dependent on the due date for the return, as
stated by IRS Appeals (Atch 09), there are exceptions
to that rule. One exception to that rule is when the
taxpayer’s return is filed late, as the case here. When
the return is filed late, the deadline for filing a refund
claim begins to run from the time the late return was
filed. Rev. Rul. 76-511 1976-2 CB 428; Weisbart v U.S.
222 F.3d 93 (2nd Cir., 2000).
Since taxpayer’s date of filing its claims for refund
for 2005, was 9/3/07, (but NLT 8/8/08) taxpayer’s
refund claim for 2005 was timely. Since taxpayer’s

/

App. 101
refund claim for 2005 was timely, the amount of the
refund is allowed to the extent that it covers
overpayments made within three (3) years of filing the
refund claim, or within two (2) years of payment of the
tax, whichever is later. IRC 6511(a).
B. Calculation of Amount of Refund Claim:
The following payments are subject to an allowance
for abatement/refund and/or credited since made
within 3 years of 9/3/07 (but NL T 8/8/08): (a) $75,610,
for amounts withheld in 2005, and which are deemed
paid on October 15, 2006, since taxpayer obtained an
extension to file 2005 returns to 10/15/06 (Atch 06).
IRC 6513; and (b) $4,782 paid on 8/8/08 (Atch 13).
1. Based on the above payments, since the actual
tax due for 2005 was $49,156, taxpayer over paid IRS
in the amount of: $31,236. (Atch 06).
Taxpayer is required to submit an additional Form
1040X, to include the above overpayments which were
not included in its amended refund claim filed on
7/23/10 (Atch 06). Taxpayer’s additional Form 1040X,
is included here as ATCH 001-2005.
In correcting its refund claim for 2005, taxpayer and
IRS records reflect the following payments, which
taxpayer is also entitled to include in its refund claim
for 2005:
2. $2,606.13 paid by levy on 7/6/10. (Atch 13).
Taxpayer is also entitled to correct its refund claim
for 2005 to include the following payments in its refund
claim for 2005:

App. 102
3. $23,919.10 paid by tax payer check #1647 on
12/8/05 which was incorrectly applied to taxpayer’s
2003 return (Atch 14). In 2003, taxpayer included into
income from stock options the sum of $412,060.14,
without deducting the cost basis of the stock options in
the amount of $425,841.82. This resulted in an
overpayment of tax in the amount of $145,253.49, since
taxpayer paid $180,946 in taxes when the correct tax
was $35,692.51. The recalculation of taxpayer’s 2003
tax liability and overpayment is described in Atch 15,
taxpayer’s adjustment to gross income, based on
accounting for taxpayer basis in exercised stock
options. The proof supporting this recalculation is
taxpayer’s 2003 return dated 7/22/05, and W-2 for
2003. (Atch 16). This refund claim for the payment of
$23,919.10, made on 12/8/05, is timely since made
within 3 years of 9/3/07, but NLT 8/8/08.
4. $264,894.38 paid by taxpayer check #1646 on
12/8/05 which was incorrectly applied to taxpayer’s
2004 return (Atch 17). In 2004, taxpayer included into
income from stock options the sum of $933,134.72,
without deducting the cost basis of the stock options in
the amount of $947,159.72. This resulted in an
overpayment of tax in the amount of $398,562.30, since
taxpayer paid $167,750.28 in taxes when the correct
tax was $27,995.08. The recalculation of taxpayer’s
2004 tax liability and overpayment is described in Atch
18, taxpayer’s adjustment to gross income, based on
accounting for taxpayer basis in exercised stock
options. The proof supporting this recalculation is
taxpayer’s return for 2004, dated 7/25/05 and W-2 for
2004 (Atch 19), This refund claim for the payment of

4

J

App. 103
$264,894.38, made on 12/8/05, is timely since made
within 3 years of 9/3/07, but NLT 8/8/08.
Taxpayer is also entitled to correct its refund claim
for 2005 to include the following payments in its refund
claim for 2005:
5. $157,027 representing overpayment of tax for
2003 (Atch 15; Atch 16). Since this overpayment is
based on withholding payments for 2003, these
payments are deemed paid on 4/15/04, the due date for
the 2003 return (Atch 16). IRC 6513. Since this date is
beyond the 3 year deadline for refund claims, taxpayer
is not permitted to apply this payment to the 2005
refund claim on this basis.
Instead, taxpayer relies on the following basis for
applying $157,027 to the 2005 refund claim. Taxpayer
has the right to elect, and elects, to apply the 2003
overpayment to the next year-2004, as payment of
estimated taxes for 2004. IRC 6513(d). Taxpayer
exercises this right of election, and by exercising this
right of election, taxpayer’s payment of $157,027 is
deemed paid on the due date of the 2004 return, which
is 4/15/05. By exercising this right of election, this
payment is within the deadline for refund claims for
2005.This refund claim for the payment of $157,027,
made on 4/15/05, is timely since made within 3 years of
9/3/07.
6. $161,663 representing overpayment of tax for
2004 (Atch 18). Since this overpayment is based on
withholding payments for 2004, these payments are
deemed paid on 4/15/05, the due date for the 2004
return. IRC 6513. (Atch 19). Since this date is within

App. 104
the 3 year deadline for refund claims, taxpayer(s) are
permitted to apply this payment to the 2005 refund
claim on this basis. This refund claim is timely since
made within 3 years of 9/3/07.
Additionally, taxpayer is entitled to rely on the
following basis for applying $161,663 to the 2005
refund claim: taxpayer has the right to elect to apply
the 2004 overpayment to the next year-2005, as
payment of estimated taxes for 2005. IRC 6513(d). By
exercising this right of election, taxpayer’s payment of
$161,663 is deemed paid on the due date of the 2005
return, which is 10/15/06. By exercising this right of
election, this payment is also within the deadline for
refund claims for 2005. Taxpayer exercises this right of
election. IRC 6513(d). The proof supporting this
recalculation is taxpayer’s return for 2004, dated
7/25/05 and W-2 for 2004 (Atch 19). This refund claim
for the payment of $161,663, made on 10/15/06, is
timely since made within 3 years of 9/3/07, but NLT
8/8/08.
C. Summary: 2005; Refund Claim Amount:
Refund Claim Amount: 2005
#

1

amount- payment proof of source of refund
overpay date
payment overpay claim
ment
ment
date

4,782

taxpayer
payment
with
09-03-07
Atch 13 filed
but nit
08-08-08 Atch 20 return 8-8/08

proof of
refund
claim
date
0012005
Atch 06;
Atch 13;
Atch 20

!

App. 105
0012005
09-03-07 Atch 06;
but nit Atch 13;
2,606.13 07-06-10 Atch 13 irs levy 8-8/08 Atch 20

2

001-

2005
3

Atch 14
09-03-07 Atch 06;
23,919.1
Atch 15 taxpayer but nit Atch 13;
0
12-08-05 Atch 16 check
8-8/08 Atch 20

4

Atch
Atch
264,894.
Atch
38
12-08-05 Atch

5

0012005
Atch 15 withhold
Atch 06;
Atch 16 ing for
Atch 13;
157,027 04-15-05 Atch 21 2003
09-03-07 Atch 20

6

0012005
Atch 18 withhold 09-03-07 Atch 06;
Atch 19 ing for but nit Atch 13;
161,663 10-15-06 Atch 22 2004
8-8/08
Atch 20

7

641,345.
61
total
X

X

X

X

17
18
09-03-07
19 taxpayer but nit
20 check
8-8/08

X

X

payment
type
estimated tax
payment-amounts
applied from prior
year’s returns
date
8

payment
amount method

withhold
04-15-05 157,027 mg

0012005
Atch 06;
Atch 13;
Atch 20

X

App. 106
9

23,919.1
12-08-05 0
check

10

264,894.
12-08-05 38
check

11

withhold
10-15-06 161,663 mg

12

607,503.
48

total
X

X

X

amounts paid
with return
and/or after
return

X

date

X

X

payment
amount method
check
with
return

13

08-08-08 4,782

14

07-06-10 2,606.13 irs levy
total

15
,

X

X

X

X

7,388.13
X

X

4. Crediting Overpayments
Subsequent Years

to

X

X

2005

and

4.1) Refund Claim for Tax Year: 2005

(

The sole basis for denying taxpayer’s refund claims for
2005-2007, as stated by IRS Appeals decision of April
21, 2011, was that the “ ... refund statute which is
generally three years from the due [date] of the return
... had expired.” (Atch 09). Despite this finding by IRS
Appeals, IRS issued a Certificate of Release of Federal
Tax Lien, dated May 04, 2011, stating that an income
taxes, and statutory additions for 2005-2007 have been
satisfied (Atch 12). Then, IRS, by Letter dated 5/16/11,
applied a 2007 amended return overpayment/refund
claim (Atch 08), to eliminate any tax due for 2005

App. 107
arising from IRS 1040A, the IRS 2005 substituted
return filed on 9/3/07; and to apply $909.33 from the
2007 overpayment/refund claim to 2008 tax liabilities.
Since taxpayer(s) filed their 2005-2007 returns late,
the due date or returns for 2005-2007 do not apply to
commence the refund deadlines, as set forth above at
Pages 1-3. The applicable rule here is: the date the late
returns were filed, is the date that commences the 3
year limitation period. Rev. Rul. 76-511 1976-2 CB428;
Weisbart v. U.S. 222 F.3d 93 (2nd Cir., 2000). IRS
acquiesced to this decision, on Nov. 13, 2000. Here IRS
filed T-IRS-1040A-2005 on 9/3/07, and since later
amended returns, which corrected T-IRS-1040A-2--5,
relate back to T-IRS- 1040A-2005, all amendments to TIRS-1040A-200S, are deemed filed on 9/3/07.
IRS Appeals also stated that it forwarded
taxpayer(s) 2005 return (T-1040-2005) (amended
returns for processing (Atch 09). IRS letter of 5/16/11,
reflects clearance of any hold arising from charges
attributable to IRS 1040A (T-IRS-1040A-2005). For all
the foregoing reasons presented in this letter, since the
governing IRS rules for fixing the deadline for filing
refund claims, for this case in which returns were filed
late, were not followed, taxpayer requests review and
reconsideration of taxpayer’s pending refund claims, as
amended.
4.2) Refund Claim for Tax Year: 2006
Enclosed is taxpayer’s Form 1040X amended
return/refund claim for 2006. (Atch 001-2006).For the
reasons set forth at Pages 1-3 above, taxpayer(s) refund

App. 108
claim for 2006 is timely and amends and corrects the
previously filed refund claim for 2006.
For the reasons set forth at Pages 3-9 here, the
amount of taxpayer’s refund claim for 2006 is timely, as
set forth in taxpayer’s Form 1040X for 2006, amending
and correcting the previously filed refund claim for
2006. (Atch 001-2006).
4.3) Refund Claim for Tax Year: 2007
Enclosed is taxpayer’s Form 1040X amended
return/refund claim for 2007. (Atch 001-2007). For the
reasons set forth at Pages 1-3 above, taxpayer’s refund
claim for 2007 is timely and amends and corrects the
previously filed refund claim for 2007.
For the reasons set forth at Pages 3-9 here, the
amount of taxpayer’s refund claim for 2007 is timely, as
set forth in taxpayer’s Form 1040X for 2007, amending
and correcting the previously filed refund claim for
2006. (Atch 001-2007).
4.4) Refund Claim for Tax Year: 2008
Enclosed is taxpayer’s Form 1040X amended
return/refund claim for 2008. (Atch 001-2008). For the
reasons set forth at Pages 1-3 above, taxpayer(s)refund
claim for 2008 is timely and amends and corrects the
previously filed original return for 2008.
For the reasons set forth at Pages 3-9 here, the
amount of taxpayer’s refund claim for 2008 is timely, as
set forth in taxpayer’s Form 1040X for 2008, amending
and correcting the previously filed original return for
2008. (Atch 001-2008).

App. 109
4.5) Refund Claim for Tax Year: 2009
Enclosed is taxpayer’s Form 1040X amended
return/refund claim for 2009. (Atch 001-2009). For the
reasons set forth at Pages 1-3 above, taxpayer(s) refund
claim for 2008 is timely and amends and corrects the
previously original return for 2009.
For the reasons set forth at Pages 3-9 here, the
amount of taxpayer’s refund claim for 2009 is timely, as
set forth in taxpayer’s Form 1040X for 2009. amending
and correcting the previously filed original return for
2009. (Atch 001-2009).
4.6) Refund Claim for Tax Year: 2010
Enclosed is taxpayer’s Form 1040X amended
return/refund claim for 2010. (Atch 001-2010). For the
reasons set forth at Pages 1-3 above, taxpayer’s refund
claim for 2009 is timely and amends and corrects the
previously filed original return for 2010.
For the reasons set forth at Pages 3-9 here, the
amount of taxpayer(s) refund claim for 2010 is timely,
as set forth in taxpayer(s) Form 1040X for 2010,
amending and correcting the previously filed original
return for 2010. (Atch 001-2010).
5. Claim For Business Loss under IRC 165
Taxpayer, as an employee, and as an independent
contractor, is engaged in a trade or business. Folker v.
Johnson 230 F2d 906 (2nd Cir., 1956). In 2010,
taxpayer became aware, for the first time, of the
substantial losses incurred because tax professionals,
that prepared taxpayer’s returns, did not reduce stock
option income by stock option basis.

App. 110
Under IRC 165(a) a business deduction is allowed
for bona fide losses sustained in the year and not
compensated for. The loss must be evidenced by a
closed and completed transaction and fixed by
identifiable events. IRS reg. 1.165-l(b) Taxpayer’s
amended returns for 2005-2007 (Atch 06; Atch 07; and
Atch 08) show that for the first time taxpayer became
aware that stock basis had not been deducted from
stock income.
The losses incurred are calculated as follows:
1. $641,345, as set out in Atch 06, and Atch
001-2005;
2. Increased overpayments of state-local taxes
approximated at: $60,750;
3. Forced sale of taxpayers Potomac, Md home,
with resulting closing costs approximating:
$20,000; and loss of equity in home
approximating: $400,000.
4. Subsequent purchase of home, with closing
costs approximating: $20,000.
5. Purchase of home, approximately % the value
of the Potomac MD home, with no equity,
and increased mortgage; difference in cost of
Potomac mortgage payments and Chevy
Chase payments (2006-2010), approximating:
$225,000.
6. Total loss: $967,095.
Taxpayer has no coverage for this loss, by
compensation, or otherwise. If taxpayer were to make
a claim, it would be in the nature of professional
malpractice, and/or negligence. Taxpayer has
abandoned any such claims, because, in addition to the

App. Ill
time end expense of suing, taxpayer would be required
to sue several attorney, and accountant, firms
including persons with very close relationships to
immediate family members. The destructive effect of
such actions would only further damage, if not
irreparably damage, already damaged family
relationships.
It is noted that IRS has now imposed the
requirement that information returns must now
include stock basis, as well as stock income.
Enforcement of these new requirements should help to
prevent the kind of devastating consequences to
taxpayers, as in fact happened to taxpayer here, which
included substantial financial damage, loss of home
through forced sale, imminent loss of home through
IRS seizure, and loss and destruction of taxpayer
business. Under IRC 172, taxpayer may go back 2
years, and forward 20 years. Taxpayer claims this loss
deduction for 2010, to the extent that it does not
conflict, and create a double deduction, with respect to
the refund claims for 2005-2010 made here.
6. List of Attachments
List of Attachments:
#
Atch#
Description
1
001-2005
1040x-2005 amended return
4/16/12
2
001-2006
1040x-2006 amended Return
4/16/12
3
001-2007
1040x-2007 amended return
4/16/12

App. 112
4

001-2008

5

001-2009

6

001-2010

7
8
9
10

A-01
01
02
03

11

04

12

05

13

06

14

07

15

08

1040x-2008 amended return
4/16/12
1040x-2009 amended return
4/16/12
1040x-2010 amended return
4/16/12
L. Shuman letter 4/16/12
7/3/09 Tax Lien
5/1/09 notice of levy
6/7/ 10 levy on bank account for
2,531.99
5/4/09 levy on bank account
for 113.90
for 39.60
6/7/10 levy on bank account
for 58,69
for 15.45
Taxpayer Form 1040x amended
return for 2005 filed 7/23/10,
w/original 2005 return attached
dated 8/6/08
Taxpayer form 1040x amended
return for 2006 filed 7/23/10,
w/original 2006 return attached
dated 8/6/08
Taxpayer For, 1040x amended
return for 2007 filed 7/23/10,
w/original 2007 return attached
dated 8/15/08

App. 113
16

08A

17

09

18

10

19

11

20

12

21

13

22

14

23

15

24

16

25

17

26

18

9/20/10 IRS notice intent to levy
attributable to Form 1040A for:
463.63 owed (T-IRS-1040A-2005)
4/21/11 IRS Appeals decision re
IRS tax lien for 2005-07
2/17/11 IRS Ltr referring case to
IRS Holtsville NY
5/1611 IRS Ltr applying
overpayment from 2007 to 2005,
and 2008
5/4/11 Certificate of Release: tax
lien
IRS Account Transcript:
1040A for 2005
1040 for 2006
1040 for 2007
ckl647 dated 12/8/05 for
$23,919.10 to IRS incorrectly for
2003 tax
4-16-12-recalculation-adjusted
gross income:2003-overpayment:
$145,253.49
2003 return dated 7/25/05: and
2003-W2
ckl646 dated 12/8/05 for
$264,894.38 to IRS incorrectly for
2004 tax
4-16-12-recalculation-adjusted
gross income-2004-overpayment:
$398,562.30

App. 114
27

19

28
29
30

20
21
22

31

23

32

24

33

25

34
35

26
27

X

X

2004 return dated 7/25/05; and
2004-W2
2008 original return filed 7/23/10
2009 original return filed 7/23/10
9/6/10 IRS notice to pay-2008$53,718.54
9/6/10 IRS notice to pay-2009$52,575.47
10/11/10 IRS notice intent to levy2008-$54,118.64
10/11/10 IRS notice intent to levy2009-$53,024.48
2010 original return filed 10/13/11
12/26/11 IRS notice intent to levy2010-$56,556.56
X

The foregoing is taxpayer’s claim for refund for 20052010, and taxpayer’s claim for IRC 165 loss, for the
year 2010. This letter and attachments is incorporated
by reference into the refund claims for 2005-2010-, and
the loss deduction claim for 2010.
Respectfully,
/s/Louis Shuman
Louis Shuman: for Louis & Sandra Shuman

App. 115

APPENDIX R
26 U.S.C. § 6214. Determinations by Tax Court
(a) Jurisdiction as to increase of deficiency, additional
amounts, or additions to the tax
Except as provided by section 7463, the Tax Court shall
have jurisdiction to redetermine the correct amount of
the deficiency even if the amount so redetermined is
greater than the amount of the deficiency, notice of
which has been mailed to the taxpayer, and to
determine whether any additional amount, or any
addition to the tax should be assessed, if claim therefor
is asserted by the Secretary at or before the hearing or
a rehearing.
(b) Jurisdiction over other years and quarters
The Tax Court in redetermining a deficiency of income
tax for any taxable year or of gift tax for any calendar
year or calendar quarter shall consider such facts with
relation to the taxes for other years or calendar
quarters as may be necessary correctly to redetermine
the amount of such deficiency, but in so doing shall
have no jurisdiction to determine whether or not the
tax for any other year or calendar quarter has been
overpaid or underpaid. Notwithstanding the preceding
sentence, the Tax Court may apply the doctrine of
equitable recoupment to the same extent that it is
available in civil tax cases before the district courts of
the United States and the United States Court of
Federal Claims.

App. 116
(c) Taxes imposed by section 507 or chapter 41,
42, 43, or 44
The Tax Court, in redetermining a deficiency of any tax
imposed by section 507 or chapter 41, 42, 43, or 44 for
any period, act, or failure to act, shall consider such
facts with relation to the taxes under chapter 41, 42,
43, or 44 for other periods, acts, or failures to act as
may be necessary correctly to redetermine the amount
of such deficiency, but in so doing shall have no
jurisdiction to determine whether or not the taxes
under chapter 41, 42, 43, or 44 for any other period,
act, or failure to act have been overpaid or underpaid.
The Tax Court, in redetermining a deficiency of any
second tier tax (as defined in section 4963(b)), shall
make a determination with respect to whether the
taxable event has been corrected.
(d) Final decisions of Tax Court
For purposes of this chapter, chapter 41, 42, 43, or 44,
and subtitles A or B the date on which a decision of the
Tax Court becomes final shall be determined according
to the provisions of section 7481.
(e) Cross reference
For provision giving Tax Court jurisdiction to order a
refund of an overpayment and to award sanctions, see
section 6512(b)(2).

App. 117
26 U.S.C. § 6402. Authority to make credits or
refunds
(a) General rule
In the case of any overpayment, the Secretary, within
the applicable period of limitations, may credit the
amount of such overpayment, including any interest
allowed thereon, against any liability in respect of an
internal revenue tax on the part of the person who
made the overpayment and shall, subject to subsections
(c), (d), (e), and (f), refund any balance to such person.
(b) Credits against estimated tax
The Secretary is authorized to prescribe regulations
providing for the crediting against the estimated
income tax for any taxable year of the amount
determined by the taxpayer or the Secretary to be an
overpayment of the income tax for a preceding taxable
year.
* * it

i

